<html>
<title> - WILDFIRES IN THE WEST: IS THE BUSH ADMINISTRATION'S RESPONSE ADEQUATE?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 WILDFIRES IN THE WEST: IS THE BUSH ADMINISTRATION'S RESPONSE ADEQUATE?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON ENERGY POLICY, NATURAL
                    RESOURCES AND REGULATORY AFFAIRS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2004

                               __________

                           Serial No. 108-178

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-222                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. HARRIS, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on Energy Policy, Natural Resources and Regulatory Affairs

                     DOUG OSE, California, Chairman
EDWARD L. SCHROCK, Virginia          JOHN F. TIERNEY, Massachusetts
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
CHRIS CANNON, Utah                   DENNIS J. KUCINICH, Ohio
NATHAN DEAL, Georgia                 CHRIS VAN HOLLEN, Maryland
CANDICE S. MILLER, Michigan          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Barbara F. Kahlow, Staff Director
                Melanie Tory, Professional Staff Member
                          Lauren Jacobs, Clerk
                     Krista Boyd, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2004......................................     1
Statement of:
    Campbell, William, chairman, Blue Ribbon Fire Commission; 
      Bruce Turbeville, chairman of the Fire Safe Council; 
      William J. McCammon, president, California Fire Chiefs 
      Association; and Amy Mall, senior forest policy analyst, 
      Natural Resources Defense Council..........................    73
    Scarlett, P. Lynn, Assistant Secretary for Policy, 
      Management, and Budget, Department of Interior; and Mark E. 
      Rey, Under Secretary for Natural Resources and Environment, 
      Department of Agriculture..................................    27
Letters, statements, etc., submitted for the record by:
    Campbell, William, chairman, Blue Ribbon Fire Commission, 
      prepared statement of......................................    76
    Mall, Amy, senior forest policy analyst, Natural Resources 
      Defense Council, prepared statement of.....................   145
    McCammon, William J., president, California Fire Chiefs 
      Association, prepared statement of.........................   131
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California:
        Cover of a report entitled, ``Science Basis for Changing 
          Forest Structure to Modify Wildfire Behavior and 
          Severity,''............................................    64
        Prepared statement of....................................     4
    Rey, Mark E., Under Secretary for Natural Resources and 
      Environment, Department of Agriculture, prepared statement 
      of.........................................................    43
    Scarlett, P. Lynn, Assistant Secretary for Policy, 
      Management, and Budget, Department of Interior, prepared 
      statement of...............................................    30
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    51
    Turbeville, Bruce, chairman of the Fire Safe Council, 
      prepared statement of......................................   118

 
 WILDFIRES IN THE WEST: IS THE BUSH ADMINISTRATION'S RESPONSE ADEQUATE?

                              ----------                              


                         WEDNESDAY, MAY 5, 2004

                  House of Representatives,
  Subcommittee on Energy Policy, Natural Resources 
                            and Regulatory Affairs,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2154, Rayburn House Office Building, Hon. Doug Ose 
(chairman of the subcommittee) presiding.
    Present: Representatives Ose, Shays, Tierney, Cannon, 
Schrock, and Tom Davis of Virginia [ex officio].
    Staff present: Barbara F. Kahlow, staff director; Melanie 
Tory, professional staff member; Lauren Jacobs, clerk; Megan 
Taormino, press secretary; Krista Boyd, minority counsel; and 
Cecelia Morton, minority office manager.
    Mr. Ose. Good afternoon. Welcome to today's hearing of the 
Subcommittee on Energy Policy, Natural Resources and Regulatory 
Affairs. Today's subject is: ``Wildfires in the West: Is the 
Bush Administration's Response Adequate?''
    Given that we just got called for a vote, here's the order 
of battle today. We're going to go ahead and commence the 
hearing, establish the quorum. I'm going to give my opening 
statement, and then we are going to recess and go to votes and 
then we'll be back at the conclusion of those votes, at which 
time we will swear in the witnesses and commence with receiving 
their testimony.
    We'll establish first that there is a quorum present with 
Chairman Davis in attendance, and I will go ahead and make my 
opening statement.
    Today 15,000 fire fighters are on the front lines of 
wildfires in California. Although we are only 2 days into the 
southern California fire season, we've already had over 18,000 
acres burned. It's timely that we're here today to discuss 
wildfire policy in the West. Failure to properly address this 
issue will result in the needless destruction of communities, 
forests, rangelands, and habitats.
    After 100 years of well-intentioned, and frankly misguided 
land management policy, Federal lands that were once healthy 
and productive are now unnaturally dense and diseased. Due to 
these unhealthy conditions, our national lands have become 
increasingly vulnerable to catastrophic wildfires. In 2000 and 
2002, our country suffered its worst two wildland fire seasons 
in 50 years. Combined, the fires of 2000 and 2002 burned over 
15 million acres of land and cost the Federal Government nearly 
$3 billion to suppress. The 2002 fire season was particularly 
severe in the West, with Arizona, Colorado, New Mexico, and 
Oregon reporting their worst fires in modern history. 
Similarly, in 2003 California experienced its worst fire season 
when 13 wildfires claimed 24 lives, destroyed 3,600 homes, 
burned 739,000 acres, and cost $250 million to contain.
    Faced with these escalating economic and ecological losses, 
in August 2002, President Bush announced his Health Forests 
Initiative. This plan sought to reduce the statutory, 
regulatory, and administrative obstacles to effective fire 
prevention and rehabilitation on Federal lands. As part of this 
plan, in December 2002, the Bush administration proposed a 
series of administrative actions that facilitated timely 
reviews of forest projects, amended the project appeals 
process, improved the consultation process required under the 
Endangered Species Act, and created a more effective 
environmental assessment process under the National 
Environmental Policy Act.
    As shown in the chart on display, in 2003 and 2004, the 
Departments of Agriculture and Interior promulgated three final 
rules, one interim final rule, and one notice to implement 
these changes.
    In addition to regulatory reform, the Bush administration 
has sought new statutory authority from Congress to adequately 
protect Federal lands from wildfires. The resulting 
legislation, known as the Healthy Forests Restoration Act, was 
signed into law in December 2003. It's known as Public Law 108-
148. Despite the new tools available to Federal land managers, 
it is likely that the West will once again experience a severe 
fire season this year. This problem was not created overnight 
and it will not be solved overnight. Nonetheless, it is still 
important that we expeditiously begin the process of removing 
hazardous fuels and returning our national lands to their 
former glory. To that end, we are here today to assess whether 
the reforms realized under the Health Forests Initiative and 
Healthy Forests Restoration Act are sufficient to eliminate the 
barriers to effective land management policy in the long term.
    Additionally, we are here today to discuss ways to enhance 
cooperation and coordination among Federal, State, local, and 
private entities. Fires are equal opportunists. They harm 
everybody. They'll consume privately owned land in the same way 
they consume adjacent Federal land, State land, or local land. 
The best way to prevent catastrophic wildfires is to forge 
alliances among the various stakeholders.
    Last, we are here today to remind the public of the very 
real fire danger that exists and of the need to vigilantly 
address the issue. All too often support for wildfire 
prevention and suppression is forgotten as soon as the flames 
are extinguished. In March, four ballot measures to improve 
fire prediction failed in San Diego County. Think about that. 
The voters who were most affected by the 2003 wildfires opted 
not to support actions to increase the ability of the community 
to prepare and respond to wildfires. For land managers and fire 
professionals to reduce the wildfire threat, they must have 
public support.
    Wildfires remain a significant threat to many communities 
and habitats throughout the West. As we examine this issue, key 
questions will include: One, is the Federal Government doing 
enough to mitigate wildfire risks; two, how can stakeholder 
relationships be improved; and three, are additional measures 
needed to address wildfires in the short or long-term?
    I look forward to the testimony of our witnesses. They 
include the Assistant Secretary for Policy, Management and 
Budget at the Department of Interior, Ms. Lynn Scarlett; the 
Under Secretary for Natural Resources and the Environment at 
the U.S. Department of Agriculture, Mr. Mark Rey; the chairman 
of the California Governor's Blue Ribbon Fire Commission, 
Senator William Campbell; the chairman of the Fire Safe 
Council, Mr. Bruce Turbeville; the president of the California 
Fire Chiefs Association, Mr. William McCammon; and the senior 
forest policy analyst for Natural Resources Defense Counsel, 
Ms. Amy Mall. Unfortunately, we were advised this morning that 
Governor Martz, who was to testify on behalf of the Western 
Governors' Association was called back to Montana because of a 
family emergency. Her written testimony will be submitted for 
the record. The record will remain open for the next 10 days to 
allow Members to submit any written questions they may have for 
Governor Martz.
    Now, given what I described earlier, the three of us are 
going to quickly go to the floor. Before we do, I am pleased to 
recognize the chairman of the full committee for the purpose of 
opening statement.
    [The prepared statements of Hon. Doug Ose and Governor 
Martz follow:]

[GRAPHIC] [TIFF OMITTED] T5222.001

[GRAPHIC] [TIFF OMITTED] T5222.002

[GRAPHIC] [TIFF OMITTED] T5222.003

[GRAPHIC] [TIFF OMITTED] T5222.004

[GRAPHIC] [TIFF OMITTED] T5222.005

[GRAPHIC] [TIFF OMITTED] T5222.006

[GRAPHIC] [TIFF OMITTED] T5222.007

[GRAPHIC] [TIFF OMITTED] T5222.008

[GRAPHIC] [TIFF OMITTED] T5222.009

[GRAPHIC] [TIFF OMITTED] T5222.010

[GRAPHIC] [TIFF OMITTED] T5222.011

[GRAPHIC] [TIFF OMITTED] T5222.012

[GRAPHIC] [TIFF OMITTED] T5222.013

[GRAPHIC] [TIFF OMITTED] T5222.014

[GRAPHIC] [TIFF OMITTED] T5222.015

[GRAPHIC] [TIFF OMITTED] T5222.016

[GRAPHIC] [TIFF OMITTED] T5222.017

[GRAPHIC] [TIFF OMITTED] T5222.018

[GRAPHIC] [TIFF OMITTED] T5222.019

[GRAPHIC] [TIFF OMITTED] T5222.020

[GRAPHIC] [TIFF OMITTED] T5222.021

[GRAPHIC] [TIFF OMITTED] T5222.022

[GRAPHIC] [TIFF OMITTED] T5222.023

    Mr. Davis. Thank you. We have a vote on. I thank the 
witnesses for being here today. It is an important fact-finding 
hearing for us, and I want to commend you Mr. Chairman, for 
holding it.
    Mr. Ose. Thank you, Mr. Davis.
    Mr. Shays.
    Mr. Shays. I thank the gentleman for holding this important 
hearing. Obviously, we can learn a lot that needs to be 
learned. Thank you.
    Mr. Ose. Thank you.
    All right. We're going to recess for the purpose of getting 
over to vote, and we'll be back as quickly as possible. I'd ask 
the witnesses to stay in close proximity.
    [Recess.]
    Mr. Ose. We'll come to order again. I want to apologize for 
the break. I want to welcome our two remaining panelists on 
panel one. Again, the Assistant Secretary for Policy, 
Management, and Budget at the Department of Interior, Ms. Lynn 
Scarlett, welcome; and the Under Secretary for Natural 
Resources and the Environment at the Department of Agriculture, 
Mr. Mark Rey. Both are welcome. We have received both of your 
testimonies and I've actually read both of them, so don't be 
shocked by that.
    Now, in this committee as a matter of practice we swear in 
all of our witnesses, so we're going to have you all rise and 
be sworn in.
    [Witnesses sworn.]
    Mr. Ose. Let the record show the witnesses answered in the 
affirmative.
    Our first witness on panel one is the Assistant Secretary 
for Policy, Management, and Budget at the U.S. Department of 
Interior, Ms. Lynn Scarlett.
    Ma'am, you are recognized for 5 minutes. Please keep in 
mind we've received your testimony, we've reviewed it, we're 
making it a part of the record. If there's something you care 
to summarize or add to it, this is the time to take advantage.

STATEMENTS OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, 
  MANAGEMENT, AND BUDGET, DEPARTMENT OF INTERIOR; AND MARK E. 
  REY, UNDER SECRETARY FOR NATURAL RESOURCES AND ENVIRONMENT, 
                   DEPARTMENT OF AGRICULTURE

    Ms. Scarlett. Thank you. Thank you very much, Mr. Chairman 
and members of the committee, for this opportunity to discuss 
wildland fire. We thank you for your support in helping us to 
reduce the risk wildland fire poses to people, communities, and 
our natural resources--risks so evident as fires burn in 
California this very day.
    President Bush announced his Healthy Forests Initiative in 
August 2002, as we are aware. The chief purpose of that 
initiative was to help us expedite fuels treatment projects so 
that we could begin to quickly and efficiently tackle the 
buildup of fuels on our ranges and forests.
    To achieve this goal, the Council of Environmental Quality 
issued streamlined environmental assessment guidelines for 
fuels treatment projects. The environmental assessments are now 
two to five times shorter than those only a year ago. We have 
completed nine projects, piloting the guidance. None of the 
streamlined environmental assessments has been appealed or 
challenged in courts.
    The second tool that we put forth under the Healthy Forests 
Initiative was through the Departments of Agriculture and 
Interior jointly adopting a new categorical exclusion for 
certain types of fuels treatment activities and post-fire 
restoration. Although the tool just became available after the 
2004 fuels program was finalized, the bureaus have recognized 
its value and are beginning to utilize it. We have done one 
project under a categorical exclusion, for example, at Big 
Cypress National Preserve on 1,000 acres to reduce dense brush 
along a highway.
    Third, we have improved procedures for meeting the goals of 
the Endangered Species Act. In January of this year, the 
Departments of Interior, Agriculture, and Commerce finalized 
regulations making the consultation process under Section 7 of 
the act more effective for fuels treatment projects. 
Alternative conservation agreements under that new approach are 
now in place with the Forest Service and the Bureau of Land 
Management.
    Fourth, the director of the Fish and Wildlife Service and 
the Assistant Administrator of NOAA issued guidance in December 
2002 directing staff to look at the long-term benefit of fuels 
treatments to plants and animals rather than just short-term 
impacts of a given fuels treatment project.
    In addition to these tools, Congress has made it easier for 
us to get fuels off the land. The President sought, and in 2003 
the Congress provided, long-term stewardship contracting 
authority for the Bureau of Land Management and expanded the 
limited authority previously granted to the Forest Service. 
Stewardship contracts or agreements allow communities, tribes, 
private companies, and others to retain forest and rangeland 
products in exchange for performing services for the BLM such 
as fuel reduction projects. The BLM has begun using this tool. 
They issued field guidance in January of this year and are 
already on track to award over 30 contracts in 11 States, with 
another 80 projects in various stages of planning for 2005.
    One such project is the Walker/Mono Basin project near 
Bishop, CA, that will remove fuels from 2,000 acres within the 
wildland urban interface using a stewardship contract.
    To further assist agencies in reducing risks of 
catastrophic wildland fire, Congress passed the Healthy Forests 
Restoration Act, which President Bush signed in December 2003. 
We have responded swiftly to implement the legislation. In 
February of this year, the Bureau of Land Management and the 
Forest Service issued field guidance to implement the act. 
Above all, working closely with communities is central to the 
Health Forests Initiative and Healthy Forests Restoration Act.
    The principal entity overseeing implementation of the 
National Fire Plan is the Wildland Fire Leadership Council, on 
which sit States, local governments, tribal governments, in 
addition to Federal agencies. I have chaired this council over 
the last year. How we work with our partners varies across 
States and across localities. In California, the collaborative 
effort falls to the California Fire Alliance, a cooperative 
group consisting of Federal land management agencies, the 
California Department of Forestry and Fire Protection, the 
Governor's Office of Emergency Services, and the California 
Fire Safe Council and others. In Florida, local collaboration 
occurs through prescribed fire councils, local cooperative 
associations, and local divisions of the Florida Division of 
Forestry.
    Numerous other examples of Federal collaboration with our 
State, tribal, and local partners are a driving force behind 
all our efforts.
    The 10-Year Comprehensive Strategy gives States the lead in 
prioritizing communities at risk from wildland fire. Last June, 
the National Association of State Foresters proposed a 
methodology for all States to use in expanding collaboration 
and cooperation to better prioritize fuels treatment projects. 
Reducing risks in the wildland-urban interface is our highest 
priority. We dedicate over 60 percent of hazardous fuels 
reduction dollars to projects in or near the wildland-urban 
interface. From the beginning of fiscal year 2001 to the end of 
fiscal year 2004, the Department of the Interior will have 
removed hazardous fuels from over 4 million acres nationwide, 
including 1.2 million acres in the wildland-urban interface.
    Mr. Ose. Ms. Scarlett, if I might, one thing I've learned 
here is that the red light comes on to remind the witness that 
they need to wrap up.
    Ms. Scarlett. Sorry. Didn't see that red light.
    Mr. Ose. OK.
    Ms. Scarlett. I will wrap up.
    Just to conclude, the investments that we have made are 
allowing us to, in California, alone, expend some $21 million, 
which is an increase of over 50 percent compared to 2001, to 
tackle these problems.
    Mr. Chairman, we understand the problems facing the Nation 
and California. As we sit here today, a number of fires burn in 
southern California. It is our intent through the wildland fire 
efforts that we have underway in our fuels reduction projects 
to begin to change the trendline and turn the corner around 
these challenges that we face.
    Thank you very much. I look forward to answering any of 
your questions.
    Mr. Ose. Thank you.
    [The prepared statement of Ms. Scarlett follows:]

    [GRAPHIC] [TIFF OMITTED] T5222.024
    
    [GRAPHIC] [TIFF OMITTED] T5222.025
    
    [GRAPHIC] [TIFF OMITTED] T5222.026
    
    [GRAPHIC] [TIFF OMITTED] T5222.027
    
    [GRAPHIC] [TIFF OMITTED] T5222.028
    
    [GRAPHIC] [TIFF OMITTED] T5222.029
    
    [GRAPHIC] [TIFF OMITTED] T5222.030
    
    [GRAPHIC] [TIFF OMITTED] T5222.031
    
    [GRAPHIC] [TIFF OMITTED] T5222.032
    
    [GRAPHIC] [TIFF OMITTED] T5222.033
    
    [GRAPHIC] [TIFF OMITTED] T5222.034
    
    Mr. Ose. Our next witness is a friend of mine in my time 
here in Congress. He's the Under Secretary for Natural 
Resources and the Environment, U.S. Department of Agriculture.
    It's nice to see you again, Mr. Rey. You are recognized for 
5 minutes.
    Mr. Rey. Thank you, Mr. Chairman. My statement for the 
record includes a summary of the Department of Agriculture's 
accomplishments under the National Fire Plan and Health Forests 
Initiative, comparable to that which Assistant Secretary 
Scarlett recounted for the Department of Interior, but I'll 
submit that for the record and instead talk a little bit about 
the fire season that we expect this year and then talk a little 
bit about funding for Healthy Forests Restoration Act programs.
    While the fire season nationally is expected to be about 
average in terms of expected number of fires and acres, much of 
the interior West and southwest Alaska is expected to have the 
potential for an above-normal fire season. The combination of 
drought and an increased of drought-stressed and insect-damaged 
trees and brush has resulted in a greater potential for large 
wildfires in the West. A very warm March has led to a 
significant reduction of western snow packs, and southwest 
Alaska snowpacks are below normal, as well.
    Late March and early April storms in the Southwestern 
States have delayed the onset of the fire season because it 
starts first in the Southwest and then moves North. However, 
the Southwest is expecting a rapid escalation to critical fire 
potential in Arizona and western New Mexico later this month 
and in June. June will also be an important month in 
determining the fire season's severity in the Northwest and the 
northern Rockies. A hot, dry June combined with current low 
snowpack would likely result in a severe fire season in both of 
these areas.
    I'll refer you to the map over on the side, which you have 
before you. It gives you a detection variance where we predict 
above-normal fire seasons and below-normal. The green are below 
normal, the orange are above normal. That gives you a 
geographical sense of how the fire season should play out based 
upon the predictive models and the information available at the 
current time.
    As Assistant Secretary Scarlett indicated, we are at work 
aggressively implementing the Healthy Forests Restoration Act, 
utilizing funds provided by Congress for fiscal year 2004.
    I have to take respectful issue though, I think, with 
statements that I've heard in the press for later witnesses 
that analogize funding from Federal Government for programs to 
assist States as analogous to virga, or rain that falls from 
the sky but evaporates before it hits the ground. I think the 
specific reference here was to southern California. We went 
back and looked at program payout in southern California, and 
so far this year we have allocated four projects that are under 
way on the ground on Federal and non-Federal lands, $67 million 
to date. Now, I have been in Washington a long time, but I 
would have to tell you that if $67 million rained down out of 
the sky on me, I think I could feel the moisture. So there is a 
great deal of program implementation underway; however, we have 
looked at program payout in a number of the Forest Service and 
Natural Resources Conservation Service programs. One of the 
limiting factors appears to be the non-Federal matching share 
either in dollars or in-kind. I've directed both the Forest 
Service and the Natural Resources Conservation Service to look 
at these programs in southern California, and, where possible, 
either reduce or defer, or in an emergency situation waive the 
non-Federal share if that will help accelerate program delivery 
on the ground, so that is underway.
    Mr. Ose. That's a change.
    Mr. Rey. That is.
    Mr. Ose. You're basically--I'm sorry to interrupt, first of 
all.
    Mr. Rey. Yes.
    Mr. Ose. But, if I understand what you just said correctly, 
you are lowering thresholds, waiving some requirements on 
matching, and trying to make it easier for localities to 
respond with Federal assistance?
    Mr. Rey. Where we have that authority under existing law, 
we're looking at that, and I believe can do it, and it will 
help.
    Mr. Ose. Thank you.
    Mr. Rey. So with that, I would be happy to respond to any 
of your questions, but I'd like to leave you with one thought, 
and I think it is relevant to the dissatisfaction of how fast 
program accomplishment is occurring, because I think there are 
some people who believed that with the passage of congressional 
legislation last year we would end all forest fires, and 
obviously that is not going to happen. This is a problem whose 
magnitude and scope is such that it's not a problem. It cannot 
be solved overnight through a concerted effort and a rapid and 
steady increase of our effort on the ground. This is a problem 
that will be with us, but can be resolved in 10 to 12 years 
time, but it is going to take that amount of time to deal with 
the problem that has been over 100 years in the making.
    So with that we would both be happy to respond to any 
questions that you've got.
    Mr. Ose. I thank the witness.
    [The prepared statement of Mr. Rey follows:]

    [GRAPHIC] [TIFF OMITTED] T5222.035
    
    [GRAPHIC] [TIFF OMITTED] T5222.036
    
    [GRAPHIC] [TIFF OMITTED] T5222.037
    
    [GRAPHIC] [TIFF OMITTED] T5222.038
    
    [GRAPHIC] [TIFF OMITTED] T5222.039
    
    [GRAPHIC] [TIFF OMITTED] T5222.040
    
    [GRAPHIC] [TIFF OMITTED] T5222.041
    
    Mr. Ose. I want to recognize my friend from Massachusetts 
for the purpose of an opening statement.
    Mr. Tierney. Thank you, Mr. Chairman. I thank both the 
witnesses for their testimony and in advance for their response 
to questions that might be asked.
    You know, the issues of wildfires certainly is a serious 
one and timely, and I'm pleased that besides Under Secretary 
Rey and Assistant Secretary Scarlett, we will be hearing from 
other experts that work at the State and local levels. I also 
want to welcome Amy Mall, who is the senior forest policy 
analyst for the Natural Resources Defense Council, who will 
give testimony on the next panel.
    As we sit here today, as Ms. Scarlett indicated, there are 
fires raging in southern California, so we should take a moment 
to salute the fire fighters there and to say how much we 
appreciate the fact that they are risking their lives to 
protect others, commend them for their heroism, and certainly 
hope that Congress continues to provide the strategic and 
financial resources necessary for them to do their jobs.
    I'm glad to see that the chairman today asked the witnesses 
to address the issue of collaboration between Federal, State, 
and local entities. The only way to be successful in protecting 
against wildfires is to make sure that it is a cooperative 
effort. While the Forest Service and the Department of Interior 
are responsible for the management of Federal lands, the 
devastation of fires certainly is felt in the communities 
living outside of those Federal lands.
    A consensus effort is the only way to ensure that we are 
providing the highest levels of protection for our communities, 
as well as caring for our forests. Unfortunately, there is some 
question about the recent Federal response, both regulatory and 
statutory, whether or not that is focused on cutting out public 
access to information and community participation in the name 
of speeding up forest thinning projects, and I'd like to hear 
some more from our witnesses on that issue.
    Certainly, if that's the case it wouldn't be acceptable. As 
with any government action, the American people have the right 
to know how their tax dollars are being spent on forest 
initiatives and how their communities will be affected, and so 
on their behalf I am going to be asking and listening for 
answers to three questions, which I'll not take the time of 
repeating them now, but I will ask them when it is my turn, and 
then ask that this statement be put on the record without 
objection, Mr. Chairman, and yield back.
    Mr. Ose. Hearing no objection, we'll do that.
    Mr. Tierney. Good.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T5222.042
    
    [GRAPHIC] [TIFF OMITTED] T5222.043
    
    Mr. Ose. All right. We're going to go to questions here, 
10-minute rounds.
    Ms. Scarlett and Mr. Rey, given the things that we've done 
here, either the President's Healthy Forests Initiative or the 
legislation that was passed and signed into law, the 
Restoration Act, do you believe additional statutory measures 
are necessary in order to at least make an impact on the fire 
situation?
    Ms. Scarlett. I will tackle that first, and then certainly 
welcome Mr. Rey's comments.
    At this point, I think we have the tools in place that we 
need to be able to get these fuels reduction projects on the 
ground. The combination of the Healthy Forests Initiative 
administrative actions we were able to take has enabled us to 
expedite the delivery of these fuels treatment projects. There 
are things, however, that we still need to refine and can do 
better. For example, as Mr. Rey suggested, getting those grant 
dollars on the ground quicker and more efficiently and with 
less paperwork for the recipients is something that we do need 
to work on. But, I do believe, in terms of the Endangered 
Species Act and the National Environmental Policy Act and 
stewardship contracting, we have the tools that we now need to 
do the job.
    Mr. Rey. I would concur with that, Mr. Chairman. I think 
what we need is a year, maybe 2 years now to get some 
familiarity with the changes that have been made, both 
statutorily and administratively, and then be in the position 
to evaluate whether, and if so what additional changes would be 
helpful. But, I think what we need now is a couple, several 
good months of implementation experience to have some data to 
draw on for that, to respond to that question more accurately.
    Mr. Ose. This question is to both of you, to the extent 
that you know. If you take into account all of the suppression 
costs, that being the actual firefighting, the economic losses 
to homeowners, the community, the destruction of habitat, the 
loss of species and the like, how do these costs compare to the 
cost of prevention? I mean, the thing that keeps running 
through my mind is, ``An ounce of prevention is worth a pound 
of cure.'' I'm trying to figure out whether that has been 
quantified. Is it 16-to-1 to the ounce-to-pound scenario, or is 
it something different?
    Mr. Rey. One simple basis of comparison is we spent 
somewhat over $1 billion in firefighting last year, but the 
damage to southern California alone for the fires of last fall 
was $3 billion, and that didn't count any other fires any place 
else in the country. Southern California fires were the most 
expensive uninsured loss from fires in our Nation's history.
    Mr. Ose. Ms. Scarlett, do you have anything to add to that?
    Ms. Scarlett. I think Mark Rey hit the nail on the head. I 
will say right now that, in terms of fire suppression, we are 
upon initial attack actually successfully putting out wildland 
fires at about a 97.5 or 98 percent rate, so in addition to 
being prepared and being able to achieve that initial attack 
success, the real key going forward is going to be our fuels 
reduction efforts, getting these forests and rangelands into 
health so we don't have the kinds of catastrophic fires when 
fires that are often natural do strike.
    Mr. Ose. How do you quantify the cost of a fire that never 
occurred? In other words, how do you compare the ounce of 
prevention, so to speak, with the pound of cure?
    Ms. Scarlett. That, of course, is very difficult because we 
never know what fires are going to strike and where they're 
going to strike and therefore what they will have prevented. I 
think the best response we can give to that is along the lines 
that Mr. Rey gave. When these catastrophic fires ignite and 
when they spread to the degree they are doing and have the 
destruction that they are putting forth, the tally is in the 
billions of dollars, far larger than the amount we're actually 
spending to do fuels treatment, preparedness, and suppression.
    Mr. Ose. Is the conclusion, is it based on common sense 
then or is it speculative? I mean, $1 billion is a lot of 
money. Are you saying that there aren't any scenarios under 
which you would come to the conclusion that the prevention 
costs would even approach that? Is that effectively what you're 
saying? I'm trying to find the scientific basis on which we're 
making these determinations of an ounce of prevention is worth 
a pound of cure.
    Ms. Scarlett. Mr. Chairman, I think that we are going about 
setting our goals in a somewhat different way rather than the 
dollars and cents way. Rather, our goals are we know that we 
have 190 million acres of land out there that are in poor 
condition, rangelands and forest lands. We have a LANDFIRE 
process that is a science process to get better vegetation 
information and better information about where fires burn with 
frequency from historical data, and with that try to tailor our 
fuels treatment to those locations and those acres that will 
most reduce the risk to communities that lie in the pathway of 
potential fires. So our goal is to reduce the risk to 
communities by bringing these lands into better health so that 
when natural fires strike they don't cause the devastation that 
we have been seeing. And, we are using science to help us learn 
where best to apply those fuels treatments.
    Mr. Ose. OK. I don't remember which of your testimony it 
was, but one of your testimonies talked about the wildland-
urban interface and spending at least 50 percent of your 
resources treating that. Are you telling us that the science 
that you have been able to gather allows you to prioritize the 
circumstances under which fire can be most devastating?
    Mr. Rey. Yes, essentially.
    Ms. Scarlett. Yes.
    Mr. Rey. Based upon the condition of tracts of land, areas 
of the forest or rangeland, and the amount of fuel, the amount 
of woody material on there, and the proximity to communities or 
structures, we can establish clear priorities for where our 
initial treatments ought to be focused in treating the 
wildland-urban interface.
    Then, in addition, based upon data that are available about 
other resource values--the location of threatened or endangered 
species habitat, for instance--we can set additional priorities 
for areas that we would like to have fuels reduced to avoid the 
destructive effects of a fire that burns in an area that we 
know is so densely packed with vegetation that the fire 
intensity is going to be destructive to either ecological 
values or to human life or property.
    Ms. Scarlett. I will add just one thing to that. We have 
both the science question--what's the condition of the land and 
what's the likelihood of catastrophic fire burning in a 
particular location? The other is the communities and which 
communities are at risk. That element we are working very 
closely with States and the National Association of State 
Foresters who have developed a checklist, if you will, to help 
communities identify areas of highest priority risk. We match 
that up with the vegetation information that our science 
provides, and that's where we target our fuels treatment 
projects.
    Mr. Ose. Regarding the areas that burned in California last 
year, do you have any information that would indicate these 
were or would have been high priority areas or any scientific 
basis for sharing with us a quantification of the danger that 
existed there? Do you have any base data like that?
    Ms. Scarlett. From the standpoint of Department of 
Interior, I have just received information on the location of 
the fires. We would need to go back and look at where they are, 
whether we have done fuels treatment, and whether those 
locations are ones with high community presence.
    Mr. Ose. You're talking about the fires that burn today?
    Ms. Scarlett. Yes.
    Mr. Ose. I'm talking about the fires that burned last year.
    Ms. Scarlett. I'm sorry.
    Mr. Ose. Have you done any sort of retrospective look at 
that as it relates to the underbrush or the intensity of a fire 
that might burn?
    Mr. Rey. Yes. We have data that show that much of the area 
that burned in California last fall would have been relatively 
high priority treatment areas. Now, a substantial portion of it 
isn't Federal land, but some of it was Federal land. And, 
indeed, there are areas that we did treat. In fact, one of the 
reasons that we were able to save the community of Lake 
Arrowhead is that we were able to use one of our treatments as 
a fire break to back fire from to control the fire that was 
headed toward the community. So while we suffered a devastating 
loss last fall, upwards of 3,000 dwellings, had we not been 
able to successfully back fire using the fuel break that was 
created through treatments that were already done, it is quite 
possible we would have lost upwards of 30,000 homes because we 
might well have lost the community of Lake Arrowhead.
    Mr. Ose. I thank the gentleman.
    The gentleman from Massachusetts for 10 minutes.
    Mr. Tierney. Thank you.
    Mr. Rey, I understand that the Los Angeles Times ran an 
analysis last month. They found that vegetation was the single 
biggest factor in whether a house burned. According to their 
analysis, 9 out of 10 houses destroyed outside of San Diego 
during the San Diego County cedar fire had a flammable 
vegetation within 30 feet. So are we comfortable that we are 
prioritizing the activities of removing the vegetation near 
homes as opposed to focusing our funding and other activities 
in logging somewhere else, which I think is referred to as 
``back country'' logging? Can you tell me what the ratio is 
between our efforts and our financing of making homes fire-wise 
versus what we are doing with regard to back country logging? 
And then, if you would, tell me what empirical evidence you 
have that back country logging actually works? Do we have any 
studies or reports that actually indicate that's effective, 
because I understand there's one Forest Service report that 
raises questions about whether it doesn't exacerbate the 
problem sometimes in either spreading or intensifying the fire.
    Mr. Rey. Let me start with your last question and submit 
for the record a report that the Forest Service released last 
month. The title of the report is, ``The Science Basis for 
Changing Forest Structure to Modify Wildfire Behavior and 
Severity.'' This is an extensive literature search that 
summarizes all of the science that we know today about the 
effect of thinning and reducing fire severity and 
destructiveness.
    Mr. Tierney. Isn't that the report that indicates that in 
some instances the back country logging can actually intensify 
a fire, or is that another report?
    Mr. Rey. No. There is no Forest Service report that 
suggests that. There are assertions that is the case sometimes, 
and there are some cases where, if the logging is done on 
private property and branches and slash material are left 
behind to leave fuels behind, that you can have a deleterious 
effect, but that's only if it is improperly done.
    Mr. Tierney. While I'll get a chance to read that 
apparently, after you file it later today, can you tell me now 
whether there are specific research bases in that study to 
indicate that back country logging is effective? Actually, 
let's put it this way--not just effective, but more effective 
than would be the result of focusing on making homes firewise.
    Mr. Rey. No. The report doesn't give a comparative 
assessment between those two, because those two are not either/
or propositions. There is considerable value to making homes 
firewise and there is considerable value in some locations to 
thinning forests that are not necessarily within the wildland-
urban interface.
    Mr. Tierney. But, we do have to prioritize them in some 
sense if we are going to try to put our resources in it.
    Mr. Rey. Sure, and we have been pretty clear that the 
highest priority is to do work within the wildland-urban 
interface, and over 60 percent of the work we are doing is 
within the wildland-urban interface. But, there are two other 
competing priorities. One is the recognition that sometimes 
just working in the wildland-urban interface, alone, won't save 
or make safe a community, because some of these fires can throw 
embers and sparks as far as 3 miles in front of the firefront, 
and if those embers or sparks land on a cedar shake roof, the 
house is going to burn even if the fire didn't get any closer 
than 3 miles to the community. So sometimes just treating in 
the wildland-urban interface isn't enough to make communities 
safe.
    Additionally, there are other values outside of the 
wildland-urban interface that we want to protect from 
catastrophic fires. Municipal watersheds, for instance, are a 
clear example. Municipal watersheds, by definition, can't be in 
the wildland-urban interface. They have to be undeveloped 
watersheds to assure that water quality is maintained. But, if 
you have a catastrophic fire in a municipal watershed, as the 
city of Denver is now experienced in showing, that's going to 
materially disadvantage water quality. So that's an area where 
you'd want to do work to reduce fire intensity, even though you 
are not in the wildland-urban interface.
    Mr. Tierney. Thank you.
    Ms. Scarlett, my understanding is that the administration's 
budget request for this upcoming fiscal year, 2005, would 
actually reduce the National Fire Plan's allocation by about 
$325 million. Am I accurate on that?
    Ms. Scarlett. Overall for the National Fire Plan?
    Mr. Tierney. Yes, the National Fire Plan.
    Ms. Scarlett. No. Actually, we have in our 2005 budget 
overall increases. For the fuels reduction projects we have 
about a $25 million increase. We have a very slight increase 
for preparedness, and also a slight increase for fire 
suppression activities. So, for the Department of Interior, we 
have an increase, particularly in the fuels reduction areas 
that we have just been talking about.
    Mr. Tierney. So the whole National Fire Plan you say it's 
an increased amount over the 2004 fiscal year as opposed to any 
decrease?
    Ms. Scarlett. That's correct, and I would let Mr. Rey speak 
to the specifics of their budget.
    Mr. Rey. It's the same for the Department of Agriculture. 
If you look at all National Fire Plan accounts, the net effect 
is an increase in 2005 requests over 2004, and 2004 was an 
increase over 2003.
    Mr. Tierney. When you use a net effect, you're doing some 
fancy math here, so----
    Mr. Rey. Some accounts that are increasing within the 
National Fire Plan and some that are decreasing. In 2000 and 
2001, for instance, we put a lot of money into capital 
expenses, acquiring new fire engines and providing grants to 
States and localities to do likewise. Some of those capital 
assets don't get replaced every year, so those accounts rise 
and fall on the basis of capital maintenance or capital 
acquisition needs. But, the overall funding for the National 
Fire Plan has been increasing.
    Mr. Tierney. Are the State and local governments getting 
the kind of targeted funding that you both feel they need in 
order to be effective partners?
    Mr. Rey. Our answer to that would be yes. I'm sure many 
State and local governments would take issue with that, and 
that's a creative tension in the cooperative arrangement that 
we have with State and local governments. This is a problem 
that's going to have to be addressed through close 
collaboration with our State and local government partners, and 
indeed our firefighting effort has historically been a 
collaborative effort under a unified command structure with 
Federal, State, and local assets all deployed.
    Mr. Tierney. Let me just ask one specific question, Mr. 
Rey. The interim final rule that was issued by the Forest 
Service in January implementing the Healthy Forests Restoration 
Act, or parts of it, anyway, seems to lay out a process by 
which the public can seek administrative review and file 
objections to any proposed forest thinning projects. But, when 
you read it, it looks as if there is a provision in there that 
prevents the public from objecting to any project that's 
proposed by the Secretary or by you.
    Mr. Rey. No. The point of the interim rule was to set up an 
appeals process----
    Mr. Tierney. Right. Which is why when I----
    Mr. Rey [continuing]. To then challenges.
    Mr. Tierney. So you would not interpret that in any way as 
an indication reserving to you or the Secretary the specific 
right to implement something without any right to object?
    Mr. Rey. That's correct.
    Mr. Tierney. OK.
    Mr. Rey. Now, there is a responsibility that if somebody is 
going to bring an administrative appeal against one of these 
projects, that they have exercised their obligation during the 
preceding public comment period to offer us their comments so 
we could have a chance to modify the project in accordance with 
their comments. If they passed on that opportunity, then the 
language of the statute would prevent them from bringing an 
appeal.
    Mr. Tierney. I have some issues with that aspect as you're 
talking about it, because I think it does limit a little too 
much, but I also had read it to indicate or at least it could 
be interpreted that either you or the Secretary could decide on 
a project and then nobody would have a right to object. I'm 
glad to hear that you're not interpreting it that way. But also 
there is, in that interim final rule issued, a process for 
public comments, but they seemed to be required before the 
environmental assessments are even available. I'm not sure how 
that is supposed to allow somebody to really make an effective 
comment if the timing is such that they don't have all of the 
environmental assessments at their disposal before they can do 
that.
    Mr. Rey. It's not before they are available; before they 
are final. One of the effects of what we are trying to do is to 
engage the public earlier in the decisionmaking process, so one 
of the elements of that interim rule is to direct our field 
people to send material to the public at an early stage of the 
deliberations to solicit their comments earlier in the process 
rather than later, so they will get the opportunity to 
participate before the decision is final, and then when the 
decision is final, presuming they have given us their comments, 
they'll have a right of appeal.
    Mr. Tierney. Well, that's laudable as long as the 
assessments don't change between the time you send them out 
early and the time the final is filed. Is that a likelihood?
    Mr. Rey. Well, if the assessments change, it will change in 
part because of the comments they give us, which I think is 
what most people hope when they give us comments, that we'll be 
receptive to what they have to say.
    Mr. Tierney. All right. We will go around here, but in fact 
that is partially true and partially wrong. If the assessment 
changes from what they saw or commented to and the final one, 
then they won't have had an opportunity to look at the final 
one unless it reflects their specific objection or comment as 
opposed to somebody else's, so they'll never at any point in 
time get the total final product to comment on in time to make 
it good.
    Mr. Rey. If they believe--if they have participated in good 
faith in the project before it has become final and then 
believe after it became final they were subject to sort of a 
bait and switch kind of an exercise, then they still have the 
right to bring that up in their subsequent appeal.
    Mr. Tierney. But, that's an avenue they'd have to take as 
opposed to being able to just comment on it before it can be 
made final. It just seems to me that there's a little bit of a 
chasing your tail aspect to it that probably could be modified.
    Thank you for your comments.
    Mr. Ose. I thank the gentleman.
    I'm pleased to recognize the dean of the Utah delegation, 
Mr. Chris Cannon.
    Mr. Cannon. Thank you.
    Ms. Scarlett, it looked like you wanted to say something 
additional. Would you like to do that?
    Ms. Scarlett. Yes. Thank you very much. I was going to add 
to the comments Mr. Rey gave on that. One of the things we are 
trying to do with the environmental assessment process is 
really to engage the public. Collaboration and cooperation with 
local communities is key. That up-front, early on engagement 
has resulted in kind of collaborative and consensus selection 
of projects, so that we hope to get beyond the litigative and 
kind of appeal approach to begin with. I have been out in the 
field and seen that working very successfully, and that is our 
aspiration here.
    Mr. Cannon. Thank you for those comments. I want to thank 
our panel for being here, our esteemed panel. It is unfortunate 
that Governor Martz couldn't be with us. She is a firecracker, 
very interesting person. I think she would have added something 
to this debate.
    I'm going to start by making just sort of a regional 
petition. Normally we beat you guys up a little bit, but this 
is asking. We hope that, Ms. Scarlett, since in your position 
in Interior you have the ability to affect policy to some 
degree, we hope that you will be considering over there the 
importance of funding our western counties with payment in lieu 
of taxes [PILT], at a higher level in the future. I think we 
are going to have a Donnybrook here over that. It would be a 
lot easier if you guys would just say, ``These counties need 
the money. We're not paying for their schools. We're not 
letting them tax these lands.'' Are you familiar with the APPLE 
project, which is an acronym that stands for public lands and 
education? I forget the first part. But it is a series of 
statistical analyses that show that people in the West in the 
public lands States, including California, tax ourselves much 
higher and have a much lower per-child payment for education 
because of Federal dominance of our public lands. We need to 
turn that around, to a large degree, and the first place to do 
that is PILT. These counties need that money, and a full 
funding of the authorized amount is not that much more, but it 
would be remarkably helpful to areas that are not able to tax 
because they have public lands which we decided in the Federal 
Government not to sell. Now, I personally think we ought to do 
that, but if we are not going to sell them or turn them over to 
the States or turn them over to the counties, we need to be 
paying for the use or for the benefit of those lands. And, if 
our friends in the Northeast want to claim national ownership, 
then we ought to have a national responsibility to pay.
    I could go on like this for a long time. Let me just say I 
hope you'll consider that in the next budget cycle, Ms. 
Scarlett.
    Ms. Scarlett. I am pleased to say that in our 2005 budget 
we actually did have an amount of $227 million for PILT, which 
is just a little tad over what Congress appropriated in 2004, 
so I think we are making progress.
    Mr. Cannon. My recollection is it was $1 million over what 
we did last year. We expect that to be much higher, 40 or 50 or 
60 percent higher next time.
    Ms. Scarlett. Well, we look forward to working with you, 
and certainly we do understand the challenges that counties 
face.
    I will add that we are also very interested in working in 
collaborative agreements with counties in other ways and have, 
for example, in Moab, UT, a collaborative partnership with a 
county that actually manages our BLM lands along with State 
lands for some recreation purposes, so there are a lot of ways 
we can work together with counties.
    Mr. Cannon. We appreciate that collaboration. Grand County, 
where Moab is, is a wonderful place. I used to represent them. 
I used to represent two-thirds of the State of Utah. Now I'm 
down to about a quarter. But, we do care about that, and the 
Western Caucus, of which Mr. Ose is a member, is anxiously 
engaged on that issue. But we divert. We're talking about 
forests here, and we really care about how you are doing what 
we need done in our national forests.
    We had a late rainy season in Utah. I don't think we are 
going to have fires for a while, but I am astonished at the 
amount of fire on our public lands that we already have. I 
think that the American people are awakening to the fact that 
we need to control this or we will devastate large areas. And, 
that doesn't mean houses, which, of course, have been a very 
significant problem in some places, especially California, but 
certainly the forest, itself. It's the watershed. It's the 
habitat of all species, including, in many cases, endangered 
species, so we care about that.
    Mr. Rey, we've had reports by GAO and the National Academy 
of Public Administration that stress the importance of 
improving cooperation and coordination among all levels of 
government and the private sector in decreasing wildfire risks. 
How are these partnerships working, do you think?
    Mr. Rey. I think they are working very well and improving 
as we go, and I think we have done a pretty good job at meeting 
virtually all of NAPA's recommendations.
    Mr. Cannon. Good. What do you project will happen with 
those over time? Are we going to have a significant influence 
on our management and elimination or limitation of fires in the 
future?
    Mr. Rey. Well, there are two areas where cooperative 
interaction among levels of governments is bearing fruit. One 
is in the organization of the firefighting effort, itself, and 
a lot of work is being done and continues to be done there to 
implement some of NAPA's recommendations. And, the second is in 
working with communities to more quickly identify the areas of 
highest priority treatment, and that's progressing very well, 
as well.
    Ms. Scarlett. Congressman, might I add to that? We have 
created, 2 years ago, a Wildland Fire Leadership Council. It is 
the first time that we have a leadership group of all the 
Federal agencies, also the National Association of Counties, 
the Western Governors' Association, and tribes and other public 
representations working together on fire policy, and the 
National Association of State Foresters. Part of that group 
actually created the guidelines for developing fuels treatment 
project priorities, so we are very much working with them and 
looking to them for their leadership as we move forward.
    Mr. Cannon. Thank you. One of the things that, in my other 
committee--I chair the Administrative and Commercial Law 
Subcommittee, and I think we are going to introduce a bill that 
would re-establish the Administrative Conference of the United 
States. That's the group that at one point in time helped 
create the model for negotiated rulemaking. And if you can 
negotiate a rulemaking, you should be able to negotiate a 
permitting, and so if you would consider with the groups you 
have just talked about the significance of potential negotiated 
permitting so we can eliminate litigation, I would very much 
appreciate that. This is an area of great importance, and we 
ought to be able to do this in a more thoughtful manner so that 
we don't just stop forestry projects which end up over-
burdening our forests with fuel, which end up in these massive 
and destructive forest fires. So thank you for that. That's 
very interesting. That's the sort of thing that I care about 
enormously.
    Ms. Scarlett, the administration decreased the wildfire 
preparedness and hazardous fuel reductions budgets and rural 
fire assistance. How does the administration justify that?
    Ms. Scarlett. Well, overall, of course, we did increase by 
$25 million in the Department of Interior fuels reduction 
projects which will go on the ground in and around communities. 
We also did increase very slightly in Interior our preparedness 
budget, and also by about $28 million our suppression budget. 
We did reduce, as you note, the rural fire assistance from $10 
million to $5 million between 2004 and 2005. In part, this is a 
priority setting matter. We had, as Mark Rey noted, put some 
moneys out into the communities over the last several years for 
them to build their preparedness infrastructure, firefighting 
equipment and so forth, but with the very significant fuels 
challenges we face, we felt it was the highest priority to get 
dollars on the ground for those treatments at this point. We 
certainly look forward to working with Congress on what that 
right balance over time is between fuels treatment and rural 
fire assistance.
    Mr. Cannon. I think as we spoke earlier the overall money 
invested in the National Fire Plan has been increasing each 
year. The mix of how that money is spent and in what areas it 
is invested has changed each year, and it is fair to say that 
in the 2005 request we focused on increasing as much as we 
could the fuels treatment account, and the rural fire 
assistance accounts were decreased, in part because they were 
so high earlier in the decade when we were helping local fire 
departments and communities purchase their capital assets that 
don't need to be purchased every year.
    Now, I'm sure you are going to hear from some local rural 
fire departments, ``Look, we didn't get that done in 2000,'' 
or, ``We didn't get enough to meet our capital needs when that 
was the first priority.'' That's sort of, I guess, the kind of 
thing that we talk through during the appropriations process to 
figure out what the right balance is. But as compared to 
earlier in the decade when those accounts were higher and fuels 
reduction was lower, we felt that the best combination for 
fiscal year 2005 was to reverse that slightly and make fuels 
treatment higher.
    I apologize for not having been able to be here earlier, 
and if this is redundant let me know, but maybe briefly answer. 
How many acres of land have been treated under the new 
regulations for Healthy Forests, and what percentage of that 
acreage is in the wild/urban interface?
    Mr. Rey. About 60 percent of the lands that we are treating 
are in the wildland-urban interface. Last year, fiscal year 
2003, we treated a total of 2.6 million acres, which is an all-
time record, indeed. There is a bar chart over there that shows 
the acres that were treated in each of the last several years. 
In 2004, we're going to push close to 4 million acres, which 
would be a new record, and in 2005 we're hoping to push beyond 
four million acres, which would be yet another new record. And, 
we hope to continue that progress into the future.
    Ms. Scarlett. To put that into a little bit of context, 
those increases represent a 45 percent increase in 2004 over 
what we accomplished just 3 years ago, so we have had a major 
uptake both in the efficiency with which we are getting this 
done and in the total numbers of acres and dollars expended. 
For Interior, the numbers are similar in terms of approximately 
60 percent of our fuels treatment projects being wildland-urban 
interface, with the remainder being things like municipal 
watersheds, utility rights of way where one, of course, wants 
to protect that infrastructure, and then key fuel breaks to 
ensure that we have defensible space. One remembers the fire 
like Sholo a few years ago, which raged 20 miles in just a 
matter of hours. You need to have those defensible spaces, as 
well.
    Mr. Cannon. Thank you. Mr. Chairman, I see I have gone over 
my time, but I would just like to thank our panelists, who have 
my greatest confidence in the job they are doing. I hope that 
we can continue to solve these problems that have accumulated 
over a very long period of time and which need to be turned 
around so that we can retain our watershed, retain our forests, 
retain our wildlife, and make America a wonderful and beautiful 
place that it deserves to be.
    Thank you, Mr. Chairman. I yield back.
    Mr. Ose. I thank the gentleman.
    I don't know which of you might know this answer, but in 
terms of the total aggregate demand for lumber in the country, 
do either of you know what the total is?
    Mr. Rey. Not offhand, but we could easily obtain that 
information for you.
    Mr. Ose. I would like to get that information, in 
particular.
    [Note.--The information can be found in USDA's responses to 
the chairman's written questions at the end of the hearing.]
    Mr. Ose. Before I proceed, I want to make that report you 
referenced in conversing with the gentleman from Massachusetts 
part of the record, without objection.
    [Note.--The rest of this document can be found in 
subcommittee files and at http://www.fs.fed.us/rm/pubs/
rmrs_gtr120.pdf].
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5222.044
    
    Mr. Ose. Mr. Rey, does the Forest Service have any estimate 
of the annual growth in board feet in the National Forests?
    Mr. Rey. We can get that information. We can give you 
growth, annual growth, annual mortality, annual harvest if 
you'd like, and then we can easily give you total annual demand 
for lumber.
    Mr. Ose. Well, the purpose I'm trying to get as is to 
quantify the amount of material being added to the pile, so to 
speak, that can be burned.
    Mr. Rey. We can get you that, as well.
    Mr. Ose. So annual growth, annual harvest, annual natural 
death by disease or otherwise gives you a net growth across the 
country, and that will tell us from 1 year to the next how much 
the forests are growing?
    Mr. Rey. Or accumulating material. That's correct.
    Mr. Ose. All right.
    Mr. Rey. I can tell you easily the accumulation is net. 
We're adding material faster than we are taking it out, and it 
is dying faster than it is growing.
    Mr. Ose. I have been given information that indicates that 
the annual growth is about 21 billion board feet, that the 
annual harvest on national forests is about 2 billion board 
feet, and the annual death on National Forests is about 3 
billion board feet. So under that scenario we're getting an 
annual growth of 16 billion board feet. Now, I don't know 
whether that's accurate or not. That's why I'm asking the 
question.
    Mr. Rey. That sounds about right. I mis-spoke a second ago. 
The mortality is higher than the harvest.
    Mr. Ose. Right.
    Mr. Rey. It's not higher than the growth. So we are 
accumulating more material every year out there. Those numbers 
sound in the ball park, but I can get you exact numbers.
    Mr. Ose. So, going back to my original question about the 
aggregate demand for lumber in the country, you compare that 
annual growth of roughly 16 billion board feet under this 
scenario against a total market--I mean, if the market is 20 
billion board feet, we have net growth per year equal to 80 
percent of our total market. So the question that gets begged 
is, you know, do we have to have growth to that level, or is 
there an opportunity, if you will, or a need to harvest greater 
amounts of dead or dying trees? In other words, we can harvest 
significantly more without a net reduction in the size of our 
forests?
    Mr. Rey. That's correct, although when we talk about the 
reduction in the size of our forests, we tend to talk about 
acreage that is in forests versus acreage that's developed for 
some other purpose.
    Mr. Ose. Now, following that same line of thought, given 
the fires that we're having in California, I would appreciate 
the same kind of information based on the National Forests in 
California. I have been given information that indicates that 
for the El Dorado, Sierra, and Stanislaus National Forest, we 
have estimated annual growth of 360 million board feet, 200 
million board feet, and 300 million board feet, and we have 
estimated 2004 removals in El Dorado, Sierra, and Stanislaus of 
13 million board feet, 8 million board feet, and 10 million 
board feet. Just in those three National Forests in California, 
estimated annual growth of about 860 million board feet and 
estimate 2004 removals of about 31 million board feet. So you 
can see how the problem accumulates over time.
    I would appreciate a clarification from the Department on 
those numbers.
    Mr. Rey. Yes. Those numbers, as well, sound within the ball 
park in terms of what I recollect, but we can validate what the 
exact numbers are for you for both the California National 
Forests as well as the system, as a whole.
    Mr. Ose. Now I want to followup on Mr. Cannon's points. One 
of the difficulties we have in any harvest, whether it is a 
post-fire harvest or a preventive action of the nature that 
Health Forests Initiative or Restoration Act would otherwise 
allow, is the appeals process that the Forest Service has to go 
through. If I understood Mr. Cannon's comments correctly, the 
initiative, itself, and the act, itself, change the appeals 
process--and I think Mr. Tierney touched on this also--to 
basically force people who want to participate in the 
deliberative process to participate at some point before the 
decision becomes final. In other words, they have standing to 
appeal. They have to be in the process. They can't just come 
out of nowhere at the last minute or even after the last moment 
and drop an appeal. Is that correct?
    Mr. Rey. That's correct. And, the reason for that change--
and that's in Section 105 of the statute--the reason for that 
change is that we were finding that some people were using the 
flexibility--I'll use the word ``flexibility''--of the previous 
appeals process to leverage the outcome by sort of laying in 
the weeds until the decision was final and then springing their 
appeal full blown at a time when they had maximum leverage, and 
that struck us as unfair to all of the people who in good faith 
participated during the public comment period and also to the 
agency people who are trying to produce a project that people 
could generally agree with, because if you don't know what 
somebody's objections are until the project is final, it's 
pretty hard to adjust the project and to respond to those 
objections.
    Now, that change was unpopular in some quarters. If I was 
an advocate for a particular point of view and I saw an 
administrative process that gave me a singular advantage by 
waiting until the end when my leverage was maximum, I'd be duty 
bound, ethically bound, to represent my clients most 
effectively by using the system in a way it could be used, and 
I don't expect anybody in that position to necessarily be happy 
that the process was changed, because the process, as it was 
designed, was beneficial to the way they were using it.
    Mr. Ose. Do you have any examples of the manner in which 
this process might have been used to the detriment of the 
forests? I'm particularly referring to what I call the ``Morgan 
cut.'' I just want to run through this. This is in North 
Carolina. In 1992, public scoping began for what was called the 
``Hickory Knob timber sale.'' In 1994, the environmental 
assessment was released. The project was found it contains 
cerulean warblers, which are listed in the forest plan as a 
sensitive species. The timber sale was subsequently dropped.
    In April 1998, part of the old timber sale morphed into the 
Morgan cut reinvention project, which is a stewardship pilot 
project, and it was proposed as a regeneration harvest on 12 
acres and a thinning on 8 acres, and the area did not contain 
any cerulean warblers. In February 1999, the consultation was 
started, and in that same month the district announced a 
decision on a categorical exclusion. That decision was 
appealed, subsequently withdrawn. The court subsequently 
eliminated the use of categorical exclusions for similar small 
projects--that would be the 20 acre type.
    In June 1999, the Forest Service district re-initiates 
scoping, an environmental assessment was released in November, 
but a decision was delayed pending analysis related to the 
endangered Indiana bat which was discovered in an adjacent 
county.
    In September 2000, a forest plan amendment and biological 
opinion were released, both containing new requirements to 
protect habitat for the Indiana bat that lived in the adjacent 
county.
    In September 2001, the forest completed a forest-wide 
management species report in compliance with the recent court 
decision affecting several national forests in the South.
    In February 2002, additional surveys were completed for 
sensitive species and the project's biological evaluation; 
environmental assessment were reformatted to meet new regional 
standards. So then the decision notice is released.
    In March 2000, that decision was then appealed, and the 
project is currently delayed pending outcome of the appeal.
    The purpose of going through this litany is to show that it 
takes 10 years to process an application on 20 acres in which 
there was no cerulean warblers, which were the basis of the 
original appeal.
    Now, how frequent is this kind of thing occurring?
    Mr. Rey. I think we can fairly describe that project as 
snakebit because it went through several different trials and 
still hasn't overcome them all. I don't think that level of 
futility is the norm, but in general terms one of the driving 
factors behind the Health Forests Initiative is that we looked 
at the amount of time and money that is being consumed by 
administrative process to get this work done, and what we found 
in the Forest Service--and the number varies for the other 
agencies, but we found in the Forest Service it's 40 cents on 
every dollar; 40 cents on every dollar that you gave us to do 
this kind of work on the ground was being consumed by those 
kinds of administrative processes. And, so what we've tried to 
do through the Health Forests Initiative is to preserve the 
opportunity for the public to participate in the development of 
these projects, but get the projects done in a way that doesn't 
take nearly that many years or nearly that much money, because 
if we continue to spend 40 cents on every dollar going through 
the kind of matriculation that you've just described, it is 
obvious that the money you give us isn't going to go very far, 
and if that continues to be the case, it is obvious that we're 
not going to stop seeing the kind of fires that we have been 
seeing each of the last couple of years.
    Mr. Ose. Well, let's keep in mind what our objective here 
today is. It is to talk about the regulatory environment that 
could be used to reduce fire exposure in some of our 
communities. I want to cite another example along this line, 
keeping in mind that our objective is to reduce the fire hazard 
in some of our communities, our forests.
    This one is from the Coconino National Forest in Arizona, 
which is the home to the northern goshawk. In 1996, the forest 
proposed thinning trees near a goshawk nest, partly to protect 
the bird from fire hazards. The project was stopped due to 
protests. Ironically, that year a fire destroyed the forest, 
including the area around the goshawk nest. I don't think 
that's our objective.
    It seems to me that the process got twisted to an 
inadvertent ending that served nobody's purpose, and I'm trying 
to find out how widespread that is.
    I apologize to my friend for going over my time. I'll be 
happy to give him an equal amount if not more.
    Ms. Scarlett. I'll add another figure that might put that 
in a little bit of context. As we went through and began to 
develop the administrative tools, the environmental assessment, 
speed up the change in appeals process, we worked with the 
Forest Service to look at how frequent that sort of 
circumstance was, and approximately close to 60 percent of 
Forest Service appealable projects were, in fact, appealed. The 
vast majority of those, upon appeal, actually were not 
successful, meaning ultimately the projects moved forward. What 
that meant is, of course, 60 percent of the time--a lot of 
investment of time and effort and money was suspended just to 
end up where you were in the first place. That is precisely why 
the Healthy Forests Restoration Act and the Healthy Forests 
Initiative have been so very important to us to be able to move 
forward.
    Mr. Ose. To be more exact, the GAO numbers are 58 percent 
of appealable Forest Service land management decisions in 
fiscal year 2001 and 2002 were, in fact, appealed, and of those 
58 percent, 73 percent of the appeals resulted in no changes 
whatsoever.
    Mr. Rey. The decisions were affirmed. That's right.
    Mr. Ose. Correct. I apologize for the length of my 
questions. I recognize the gentleman.
    Mr. Tierney. Actually, I just have one small thing that I 
want to clear up, just for information. We were talking earlier 
about the budget and whether there had been cuts or not, and 
maybe I wasn't fine enough in identifying, because you started 
talking about net cuts and everything, and I want to make sure 
we don't go. With respect to State fire assistance, the 
Congressional Research Service tells me at least that in 2004 
we had $51.1 million, and the request for 2005 is $34.2. 
Correct me if I am wrong on that, but if I am correct would you 
tell me why the disparity and what the theory is behind it?
    Mr. Rey. I think those are the correct numbers, and the 
difference there is that we increased State fire assistance and 
comparable grant programs significantly in fiscal year 2000 and 
2001, and that money went to the purchase of a considerable 
amount of capital equipment, assisting communities in buying 
new fire engines. And, it is our judgment that not all of those 
capital expenditures need to be made every year. You don't buy 
a new fire engine every year.
    Mr. Tierney. I just want to go along with this step by 
step. I don't mean to be rude at all, but in 2001 you had 
$118.5 million, so that's where all that capital equipment was?
    Mr. Rey. Right.
    Mr. Tierney. And then you dropped to $87.1 in 2002, went 
back up in 2003 to $89.3, then down significantly in 2004 to 
$69.1 overall, and then down to $47. I think those numbers are 
reflected in the State fire assistance end of it. So you have 
had 4 years where you were up at over $50 million and then 
dropped down to $34, so it can't all be in capital equipment or 
whatever, I wouldn't assume.
    Mr. Rey. Much of it is. That's the most common use of that 
account. Now, as I said earlier----
    Mr. Tierney. So, you're just basically saying--and I accept 
it if you are saying that there are basically things that 
you've taken care of, all of the capital equipment needs, and 
that none of that equipment has gotten to the point that it's 
so old it needs to be replaced or any big expense on that?
    Mr. Rey. Generally, yes, but I'll acknowledge that I will 
not be surprised if you hear from some locales who say, ``We 
didn't get it done. We still need money to make some additional 
capital purchases.'' That's kind of the way the appropriations 
process works. We make a proposal and the Congress adjusts it 
and modifies it on the basis of the testimony that they receive 
during the course of the year, and at the end of the day the 
accounts may not look exactly like we proposed them but we'll 
finally work something out.
    I think the more important thing, the big picture is that 
there is a combined commitment on part of the Congress, part of 
the administration, bipartisan fashion that the National Fire 
Plan accounts are going to continue to increase, and that work 
on the ground, which is really the most important thing, 
because that's the preventative work, is going to increase, as 
well.
    Mr. Tierney. I guess, you know, if we are going to do that 
I think it is important that the local communities obviously 
participate----
    Mr. Rey. Correct.
    Mr. Tierney [continuing]. And, have some of their needs 
met, so what I'd like to know is: did you propose more and OMB 
cut back on your proposal? Were there communities that you had 
originally thought that they might this year get some 
assistance, and OMB or somebody else in the administration told 
you this wasn't the year?
    Mr. Rey. No. The proposal that we sent forward was, by and 
large, adopted, so we have no qualms with it.
    Mr. Tierney. When you made the proposal, were there 
communities that you knew needed things that you just didn't 
think that you could allow for in this year's budget?
    Mr. Rey. No. I think what I'm saying is we don't know at 
the outset, at the beginning of each budget year, necessarily 
what each community's needs are going to be.
    Mr. Tierney. You don't ask them?
    Mr. Rey. We do ask them, and we try to average it out 
nationwide, but the Congress is going to hear from communities 
during the course of the debate over the appropriations bill 
this year and the accounts will be adjusted. That's the way the 
process works.
    Mr. Tierney. Well, it works in part. I mean, I would assume 
that you hear from the communities and you try to allocate 
things where they are needed, so maybe we're doing it a second 
time here when we do it in Congress, but I'm assuming that 
there was a point in time where you asked for community input 
as to what their needs were, and I guess I want to know did you 
agree or disagree with them, and did you meet their needs or 
not?
    Mr. Rey. We looked at several requests from different 
programs and tried to strike the best balance we could.
    Mr. Tierney. Balance between who? Who were you balancing?
    Ms. Scarlett. I guess I would----
    Mr. Tierney. Excuse me a second.
    Mr. Rey. Between different accounts.
    Mr. Tierney. All right. But not between the communities' 
needs and something else?
    Mr. Rey. No.
    Mr. Tierney. You would determine that community might have 
had a valid request and you just couldn't accommodate it 
because you had to balance between another account.
    Mr. Rey. Between all of their requests.
    Mr. Tierney. Because you had an amount that you had to stay 
within?
    Mr. Rey. Within an increasing budget for this program area, 
yes.
    Mr. Tierney. But an amount that's----
    Mr. Rey. It's not unlimited, but it is increasing.
    Mr. Tierney. All right. But I guess, you know, I'm really 
not trying to trick you or anything here, so I don't know why 
we're having this struggle, but the bottom line of it is that 
you had an amount that you thought that you could spend in your 
department, and within that amount there were some needs that 
you thought you could meet and others that you didn't think you 
could meet?
    Mr. Rey. Yes, I wouldn't dispute that. I think that's the 
way every budget has worked since time immemorial.
    Mr. Tierney. That wasn't painful at all, was it?
    Mr. Rey. Yes. And, in this particular cycle, given the 
importance of doing this hazardous fuel reduction work, we put 
a higher premium on that, and that's something that we're going 
to continue to debate over the course of the year.
    Mr. Tierney. But, now we have something to tell the 
communities when they come to us and say they went to you and 
they had a need and you didn't accommodate it. We now know what 
your thought process was, which is what I was trying to get at.
    Mr. Rey. Right.
    Mr. Tierney. Thank you for your answer.
    Mr. Rey. And, the other complexity of it is that in the 
program affected here, which is our program of assistance to 
States and communities, there are other non-fire program 
accounts that they told us that were very important and asked 
us to fund at significantly increased levels, as well. And, 
some of those had to play in the same priority setting.
    What we think we did in our State and Private Forestry 
budget is respond as favorably to what the States and 
communities told us were their top priorities. Now, that's sort 
of a national whole, listening to their national organizations. 
I would concede--and I think we both recognize--that in some 
cases and in some regions those national priorities aren't 
going to be reflective of what a particular State would say is 
their top priority, and that will work itself out as the 
appropriations process proceeds.
    Mr. Tierney. I thank you. It was important for us to 
understand what your reason and your rationale was and how we 
ended up with that differentiation in those numbers.
    Mr. Chairman, I thank the witnesses for their testimony, 
and I apologize to the next panel but I have to go to the floor 
to manage a bill, and so I'm going to have to leave at this 
point in time. I'll try to get back if I can, but I thank you 
for having this hearing and I thank the witnesses for their 
testimony.
    Mr. Ose. I thank the gentleman.
    I just want to followup on this question or this issue that 
you raised earlier, Mr. Rey, having to do with what 
administrative adjustments might be possible in terms of the 
Federal/State matching. You mentioned that there might be--and 
this is important to California, because I know a lot of people 
are watching the news tonight. They're not watching us, they're 
watching those fires. I'm curious as to what adjustments you 
have in mind along this line.
    Mr. Rey. Let me be a little more specific and tell you what 
I've asked our folks to take a look at. There are two agencies 
involved in spending out the money that was provided in the 
fiscal year 2004 omnibus appropriations bill. One is the Forest 
Service and one is the Natural Resources Conservation Service. 
In the Natural Resources Conservation Service, there is roughly 
$17 million that has already been spent for post-fire recovery 
work, and about $120 million that was provided for hazard tree 
removal, both under the Emergency Watershed Protection Program.
    The Emergency Watershed Protection Program requires a 25 
percent match, and, in the three counties involved, San 
Bernadino County and Riverside County have both come up with an 
in-kind match, and San Diego County is still struggling to meet 
that standard.
    We do have the authority to waive that 25 or reduce the 25 
percent match in an emergency situation, and what I directed 
the NRCS to do is to look into whether we can reduce it or 
defer it--the match money is spent later in the year or in out 
years--or to waive it if there is absolutely no way the county 
is going to provide its in-kind, so we'll work on that.
    The Forest Service has a number of programs for which we--
--
    Mr. Ose. Before we leave that one issue, will all the 
counties be treated the same in terms of the waiver issue?
    Mr. Rey. No. In this case we would have to declare a 
specific emergency if we were going to give San Diego County a 
waiver.
    Mr. Ose. OK.
    Mr. Rey. And, we've done that a couple of times before, so 
there is some precedent for it.
    Mr. Ose. Thank you.
    Mr. Rey. What I'd like to see is, if that's the impediment 
to getting the money out there more quickly before we decide 
that we want to go that way, because it means that there will 
be less money overall doing the work on the ground.
    The Forest Service programs require or generally involve a 
50/50 match, again either with cash or in-kind, and I've 
directed the Forest Service to look into whether any of the 
payout is being delayed as a consequence of difficulty in 
hitting the 50/50 match. We don't have the authority, I don't 
think, to waive it completely, but I think we can reduce the 
share if need be or again defer the payout so that it comes in 
in the out years for project support. So I've directed both 
agencies to look into that in the interest of getting more work 
done on the ground more quickly, particularly because all of 
those program accounts are going to removal of beetle-killed 
trees in those three counties in southern California.
    Mr. Ose. I just want to make sure we've got a clear 
understanding of what that is. The Federal Government has this 
pot of money, but the only way to access it is by virtue of a 
match that comes from the local or State coffers. Absent a 
financial contribution from the local or State coffers, the 
money stays in this Federal account unless there's a waiver of 
some sort or another, and that's the thing you're looking at 
now?
    Mr. Rey. Correct. The only thing I would amend to what you 
just said is that the State and local contribution can be cash 
or in-kind.
    Mr. Ose. OK. Any idea when that deliberative process will 
be completed?
    Mr. Rey. We can get you a work out on that in about 2 
weeks.
    Mr. Ose. I want to thank you for thinking about that, 
because I think that is very important in California, and I 
suspect it is going to be important in other communities across 
the West as the year progresses.
    Mr. Rey. Well, in addition to talking with you over the 
last 2 days, I have been talking with Senator Feinstein and 
Senator Boxer, so we have been working on this as you have 
asked us to for about 48 hours now.
    Mr. Ose. All right. Thank you. I have no further questions 
for these panelists at the moment. We are going to leave the 
record open for Members to submit questions in writing for 10 
days. To the extent you can respond in a timely fashion, it 
would certainly be appreciated. I do want to thank you for 
taking the time to come visit with us for 1 hour and 45 
minutes. It's always a pleasure to see you.
    Ms. Scarlett. Thank you very much.
    Mr. Ose. We're going to take a 5-minute recess.
    [Recess.]
    Mr. Ose. I want to thank the panel for gathering so timely. 
As you saw in the first panel, we routinely swear everybody in, 
so if you would all please rise. Raise your right hands.
    [Witnesses sworn.]
    Mr. Ose. Let the record show the witnesses answered in the 
affirmative.
    Our second panel is composed of the following individuals: 
we have the chairman of the State of California Governor's Blue 
Ribbon Fire Commission, Senator William Campbell; we're also 
joined by the chairman of the Fire Safe Council, Mr. Bruce 
Turbeville; we have joining us representing the California Fire 
Chiefs Association the president of that organization, Mr. 
William McCammon; and our fourth witness on this panel is a 
senior forest policy analyst for the Natural Resources Defense 
Council, Ms. Amy Mall.
    Again, you saw how the first panel worked. For those of you 
who haven't been here before, what we do is we recognize each 
of you for 5 minutes. We have received your testimony, your 
written testimony, and we have reviewed it. To the extent that 
you can summarize or add anything new within that 5 minutes, 
that would be great. We would appreciate that.
    Senator Campbell, it is good to see you again. You are 
recognized for 5 minutes.

   STATEMENT OF WILLIAM CAMPBELL, CHAIRMAN, BLUE RIBBON FIRE 
    COMMISSION; BRUCE TURBEVILLE, CHAIRMAN OF THE FIRE SAFE 
COUNCIL; WILLIAM J. MCCAMMON, PRESIDENT, CALIFORNIA FIRE CHIEFS 
   ASSOCIATION; AND AMY MALL, SENIOR FOREST POLICY ANALYST, 
               NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Campbell. Thank you, Mr. Chairman. It is a pleasure to 
be here.
    Before I begin, I would like to add to what you started 
with and give you the latest update on the California fires. 
They have now consumed over 24,000 acres. We've lost 16 homes, 
14 injuries, and the greatest threat is in Riverside County 
right now with the Eagle and Cerritos fires, which threaten 
over 1,000 homes.
    Mr. Chairman and distinguished members, I am honored to be 
invited to testify before your subcommittee. My name is Bill 
Campbell, and I am a retired State Senator from California who 
was asked by former Governor Gray Davis and then Governor-elect 
Arnold Schwarzenegger to be the chairman of the Governor's Blue 
Ribbon Fire Commission. The Commission was formed on November 
2nd of last year in the wake of the California's unprecedented 
series of wildland-urban interface fires that ravaged southern 
California in October of last year. Southern California 
experienced the most devastating wildland fire disaster in the 
State's history. Over 739,000 acres burned; 3,631 homes were 
destroyed, including the home of your colleague, Chairman 
Duncan Hunter; 36 commercial properties and 11,069 outbuildings 
were destroyed; 246 injuries; 24 fatalities, including one fire 
fighter. At the height of the siege, 15,631 personnel were 
assigned to these fires.
    Presidential declarations of disaster were declared in San 
Diego, Los Angeles, San Bernadino, Ventura, and Riverside 
Counties. And, in the aftermath of the fires, in San Bernadino 
County a barren mountain canyon landscape impacted by a rain 
storm produced a flash flood and mudslide causing even more 
tragedy and destruction. Sixteen more lives were lost on this 
follow-on disaster on Christmas Day of 2003, and 2 weeks ago 
they found the remains of the last victim, an 11-year-old boy 
15 miles from the site where he was originally located.
    Thirty-four Blue Ribbon Fire Commission members comprised 
of Federal, State, and local officials assembled to examine the 
wildland fire disaster's response and the critical public 
policy issues that impede or strengthen our firefighting 
efforts. We were honored to have Senator Diane Feinstein and 
Representatives Jerry Lewis and Susan Davis on our Commission. 
I am truly grateful for their leadership, dedication, and 
support. In addition, we had representatives from the 
Department of Defense, the Department of Interior, the 
Department of Agriculture, and the Department of Homeland 
Security.
    As you said, you have a copy of this, and so I am going to 
skip some of this.
    We were given 120 days to examine and deliberate on these 
issues and report back to the Governor with recommendations, 
and the Commission just published a report of our findings and 
deliberations, and I've submitted two copies of that report for 
inclusion in the official record. The executive summary of this 
report is part of my submitted written statement, and I would 
like to share just a few of the key Federal recommendations 
from the report at this time.
    The Commission recommends that the Federal agencies, to 
include Departments of Interior and Forest Service, work in 
conjunction with California State and local fire agencies and 
the military to jointly develop and adopt agreements, 
regulations, and operating policies for the deployment of 
aerial assets during wildland-urban interface firefighting 
efforts.
    The Commission recommends that Congress increase efforts to 
provide training for local fire departments through Federal 
grant programs and expand the rural fire assistance grant 
program.
    And, the Commission recommends that sufficient standardized 
frequencies be issued by the Federal communications system to 
meet the interoperability communication needs of fire and 
emergency personnel.
    Our 48 recommendations have been categorized as primarily 
public policy solutions or fiscal issues. The Commission was 
sensitive to the financial plight of government at all levels 
and recognized that few of the fiscal recommendations would 
have meaningful value in the absence of critical public policy 
changes that first must proceed them.
    In summary of our Commission's examination, let me state 
that the magnitude of the tragedy, not only in terms of the 
loss of human life and property, but in the loss of valuable 
watershed, wildlife, and critical environmental habitats, was 
truly catastrophic. After a series of extensive and 
deliberative public hearings, the Commission determined that, 
while the bravery and dedication of California's fire service 
continues to be exemplary, many lessons from similar past 
tragedies had gone unlearned by those responsible for 
development of fire safety and prevention policies. Foremost 
among those lessons is the lack of political will to prioritize 
among competing but very important public policy goals. 
Vegetation and fuel management, habitat preservation, and 
environmental protection have often conflicted with sound fire 
safe planning in the development of wildland areas. When 
adverse weather and fuel conditions combine, our fire fighters 
have been given the impossible task of protecting life and 
property in the face of these policy conflicts.
    Additionally, the Commission recognized the difficulty the 
Fire Service faces in meeting the fire protective challenges of 
explosive development along the wildland-urban interface, and 
among the findings and recommendations the Commission urges the 
same commitment to professional training afforded the valiant 
men and women of law enforcement to our California Fire 
Service.
    In closing, Chairman Ose and members of the subcommittee, I 
believe it is essential to understand that unless and until 
public policymakers at all levels of government muster the 
political will to put the protection of life and property ahead 
of competing political agendas, these tragedies are certain to 
continue.
    This concludes my oral testimony, Mr. Chairman.
    Mr. Ose. I thank the gentleman.
    [The prepared statement of Mr. Campbell follows:]

    [GRAPHIC] [TIFF OMITTED] T5222.045
    
    [GRAPHIC] [TIFF OMITTED] T5222.046
    
    [GRAPHIC] [TIFF OMITTED] T5222.047
    
    [GRAPHIC] [TIFF OMITTED] T5222.048
    
    [GRAPHIC] [TIFF OMITTED] T5222.049
    
    [GRAPHIC] [TIFF OMITTED] T5222.050
    
    [GRAPHIC] [TIFF OMITTED] T5222.051
    
    [GRAPHIC] [TIFF OMITTED] T5222.052
    
    [GRAPHIC] [TIFF OMITTED] T5222.053
    
    [GRAPHIC] [TIFF OMITTED] T5222.054
    
    [GRAPHIC] [TIFF OMITTED] T5222.055
    
    [GRAPHIC] [TIFF OMITTED] T5222.056
    
    [GRAPHIC] [TIFF OMITTED] T5222.057
    
    [GRAPHIC] [TIFF OMITTED] T5222.058
    
    [GRAPHIC] [TIFF OMITTED] T5222.059
    
    [GRAPHIC] [TIFF OMITTED] T5222.060
    
    [GRAPHIC] [TIFF OMITTED] T5222.061
    
    [GRAPHIC] [TIFF OMITTED] T5222.062
    
    [GRAPHIC] [TIFF OMITTED] T5222.063
    
    [GRAPHIC] [TIFF OMITTED] T5222.064
    
    [GRAPHIC] [TIFF OMITTED] T5222.065
    
    [GRAPHIC] [TIFF OMITTED] T5222.066
    
    [GRAPHIC] [TIFF OMITTED] T5222.067
    
    [GRAPHIC] [TIFF OMITTED] T5222.068
    
    [GRAPHIC] [TIFF OMITTED] T5222.069
    
    [GRAPHIC] [TIFF OMITTED] T5222.070
    
    [GRAPHIC] [TIFF OMITTED] T5222.071
    
    [GRAPHIC] [TIFF OMITTED] T5222.072
    
    [GRAPHIC] [TIFF OMITTED] T5222.073
    
    [GRAPHIC] [TIFF OMITTED] T5222.074
    
    [GRAPHIC] [TIFF OMITTED] T5222.075
    
    [GRAPHIC] [TIFF OMITTED] T5222.076
    
    [GRAPHIC] [TIFF OMITTED] T5222.077
    
    [GRAPHIC] [TIFF OMITTED] T5222.078
    
    [GRAPHIC] [TIFF OMITTED] T5222.079
    
    [GRAPHIC] [TIFF OMITTED] T5222.080
    
    [GRAPHIC] [TIFF OMITTED] T5222.081
    
    [GRAPHIC] [TIFF OMITTED] T5222.082
    
    [GRAPHIC] [TIFF OMITTED] T5222.083
    
    [GRAPHIC] [TIFF OMITTED] T5222.084
    
    Mr. Ose. Our next witness is Bruce Turbeville, who is the 
chairman of the Fire Safe Council.
    Sir, we appreciate your attendance today. We have received 
your statement in writing. It has been submitted in the record. 
You are recognized for 5 minutes to summarize.
    Mr. Turbeville. Thank you, Mr. Chairman. It is a pleasure 
to be here. I appreciate the opportunity. I am Bruce 
Turbeville, chairman of the Fire Safe Council. I'll give you 
just a quick background. The Fire Safe Council actually was 
formed in 1993 when we recognized that State government alone 
could not enforce all of the fire prevention needs and did not 
have enough money for public education. So, we looked at the 
fact that public-private partnerships might help, so we formed 
the Fire Safe Council looking at the insurance industry, the 
real estate industry, and other entities that had a vested 
interest in reducing fire damage.
    As time progressed, the Council grew, and it became clearly 
evident that the Council concept could be put to use at the 
local level, so local Fire Safe Councils began to form, and 
what that did is give us community effort, with people 
understanding that they have a position and a place to deal 
with their concerns as related to wildfires.
    As these grew and became more entrenched at the local 
level, we noticed that just the volunteerism side of it didn't 
work and they needed funding. Almost simultaneously, the 
National Fire Plan funding became available, and grants were 
made available to continue the public education.
    In 2001, during the first year we had close to 100 grants 
fulfilled up and down the State, and at the time we only had 50 
or 60 Fire Safe Councils. The success has been to the point now 
we have 120 local Fire Safe Councils, and they are all taking 
it upon themselves to do fuel treatments around and within the 
communities. They are the perfect channel for the Federal grant 
funds to come down from Interior and Agriculture to the county 
level, the community level.
    The success has been phenomenal; however, now we are 
fearful of the loss of funds. The community assistance grant 
total available for 2005 appears to be little, if any, compared 
to what we've had in the past. We have a growing need and a 
diminishing supply of funding, it appears. Just this last year 
we had 393 grant requests totaling $49 million. We had 
available $5 million, so 10 percent of the folks that want to 
do the job. I point out again the value of the community. These 
are the people that live there and recognize that there's a 
problem and they want to do something about it. It is an ideal 
situation, and we need to keep it going if at all possible.
    The Health Forests Initiative and the Healthy Forests 
Restoration Act are both programs that the Fire Safe Councils 
are the perfect conduit from the top down to the bottom. As 
they become in place, we're taking advantage of those and 
helping them become effective.
    I think the most important thing to recognize here is 
you've got the grassroots willing to do the work if we just 
give them a little seed money. It seems to be working better 
than I ever imagined it would be, and we just can't let it 
wither away.
    You did ask a question, Mr. Chairman, a while back about 
the ounce of prevention and a pound of cure. I think I may have 
prompted that by my statement where I said for every $1 you put 
in prevention you save $10 in suppression and damage. And no, I 
can't prove it because I made it up, but nobody else has 
disproved it. I just wanted that to be on the record.
    The sort of things we have been dealing with over the last 
few years as far as funding, when the finance officer for the 
State of California asked me in a hearing similar to this, 
``Show me a fire that you prevented,'' I can't show you a fire 
prevented, but I point to all of the ones that haven't started.
    I leave you with one question, and that is: why is there 
always enough money to put out the fires and there's never 
enough to prevent them?
    I thank you for the opportunity.
    Mr. Ose. That's an excellent question. I thank the 
gentleman for his testimony.
    [The prepared statement of Mr. Turbeville follows:]

    [GRAPHIC] [TIFF OMITTED] T5222.085
    
    [GRAPHIC] [TIFF OMITTED] T5222.086
    
    [GRAPHIC] [TIFF OMITTED] T5222.087
    
    [GRAPHIC] [TIFF OMITTED] T5222.088
    
    [GRAPHIC] [TIFF OMITTED] T5222.089
    
    [GRAPHIC] [TIFF OMITTED] T5222.090
    
    [GRAPHIC] [TIFF OMITTED] T5222.091
    
    [GRAPHIC] [TIFF OMITTED] T5222.092
    
    [GRAPHIC] [TIFF OMITTED] T5222.093
    
    [GRAPHIC] [TIFF OMITTED] T5222.094
    
    Mr. Ose. We're going to go to our next witness. That would 
be the president of the California Fire Chiefs Association, Mr. 
William McCammon.
    Chief, welcome to the witness table here in front of our 
committee. You're recognized for 5 minutes.
    Mr. McCammon. Thank you very much. Good afternoon, Chairman 
Ose and committee members. My name is Bill McCammon. I'm the 
fire chief of the Alameda County Fire Department in California. 
I'm also the president of the California Fire Chiefs 
Association and board member of the Metropolitan Fire Chiefs 
Association. It is an honor to provide testimony regarding the 
challenges fire-service professionals and communities face in 
mitigating, managing, and responding to wildland fires.
    If there is one lesson we've learned about the devastating 
effect of the most recent fires, it is in the end we all lose. 
In the recent fires in southern California, there were 
critically sensitive habitat areas where fuels management 
programs were not completed prior to the fires. That habitat is 
now destroyed. There were property owners that didn't manage 
the vegetation adjacent to their homes. Those homes are no 
longer standing. There were lives lost and critical watershed 
destroyed after the fires as heavy rains caused mudslides in 
the recently burnt-out areas.
    In 1966, the County Supervisors' Association in conjunction 
with the forest protection agencies recommended the need for 
comprehensive and coordinated land use planning, including 
declaration of hazardous fire areas, clearance of flammable 
vegetation around developments, and standardized building codes 
and zoning ordinances. In 1970, California was burning. In 13 
days there were 773 fires burning over 570,000 acres, consuming 
772 homes with 16 lives lost. The 1970 task force recommended, 
among other things, fuel and hazard reduction programs, land 
use and building code changes, and expanded fire prevention 
programs.
    Again, in 1972, 1978, 1980, 1985, 1991, and 1993 California 
experienced devastating fires with large numbers of homes, 
lives, and critical habitat lost. Task forces were formed and 
reports were written with recommendations very similar to those 
included in the recent Blue Ribbon Fire Commission report. In 
almost all of these cases, the identified weaknesses with 
suppression efforts have been corrected. It has been 
recommended time and time again and proven that in areas where 
there have been fuels management programs combined with 
effective land use planning, the effects of fire have been 
minimized.
    In 2002, Congress and the Federal land management agencies 
asked the National Academy of Public Administrators to examine 
six fires that occurred and make recommendations on wildfire 
issues. The series of reports concluded that the Nation's 
readiness and capacity for hazard reduction was the least 
developed of all the critical issues related to wildfire 
suppression. The reports also concluded that it will 
increasingly depend on intergovernmental and public and private 
partnerships capable of reducing large-scale risks affecting 
multiple owners. Some progress has been made to bring together 
the stakeholder groups to develop common goals and practices in 
California. The California Fire Alliance was formed, bringing 
together Federal, State, and local government agencies to play 
a role in fire policy to coordinate efforts toward the 
implementation of the National Fire Plan at the local level.
    The Fire Alliance has formed a grants clearinghouse that 
provides a streamlined, online grant application process for 
National Fire Plan grants. This program has been very 
successful in moving what limited funding has been available 
from State and Federal agencies to local Fire Safe Councils. 
The ongoing critical challenge is to have State and Federal 
agencies allocate more funding to these local programs.
    California Fire Chiefs Association, in conjunction with 
``Fire Engineering Magazine'' held two wildfire summits. Ten 
States were represented, along with local, regional, and 
national leaders. The results included recommendations, most of 
which dealt with hazard reduction. We realized as a result of 
the summits that greater involvement from the environmental 
community is essential. Plans are already underway to host a 
summit bringing the environmental community together with local 
and county planners to develop more consensus around fuels 
management strategies.
    Even with these positive efforts moving forward, having a 
coordinated political effort between local, State, and 
federally elected officials to standardize regulations for 
fuels management and building and zoning standards is 
essential.
    The grants that have been offered through the National Fire 
Plan have been well received, but the total amount available 
for these efforts has been diminishing. Funding for these types 
of programs is, as has famously been told, analogous to virga 
rain that falls from the sky and evaporates before it hits the 
ground. The grants come from two different departments and five 
different agencies, each with their own set of priorities, each 
with different matching requirements ranging from no match to 
100 percent match, and, most importantly, each with a different 
system of communicating the opportunities to the local 
communities.
    In California this disconnected, uncoordinated process 
caused the formation of the Fire Alliance. Even with the 
attempts to coordinate the grant process, the system does not 
promote participation and clearly does not receive sufficient 
funding to come close to addressing the need.
    Today in California there are over 1,100 communities that 
have been identified as at risk and over 850 are adjacent to 
Federal lands. This year there were 393 grants submitted 
totaling over $49 million, and there was less than $7 million 
available for those programs.
    The recent passage of the Healthy Forests Restoration Act 
at face value appears to begin to address funding for critical 
fuels management programs along with community and stakeholder 
involvement in the development of fuels treatment projects. The 
success of the Healthy Forests Restoration Act will be 
dependent upon a full commitment from all stakeholders and 
sustained funding.
    As I have stated in my testimony, unless we are able to 
address the issues of political will, fuels management, 
stakeholder consensus, and adequate funding, we will continue 
to experience major wildland fires that will destroy 
communities, critical habitat, watershed, and become an ever-
increasing economic drain on our society.
    Thank you for the opportunity. I will be available for 
questions.
    Mr. Ose. Thank you, Chief.
    [The prepared statement of Mr. McCammon follows:]

    [GRAPHIC] [TIFF OMITTED] T5222.095
    
    [GRAPHIC] [TIFF OMITTED] T5222.096
    
    [GRAPHIC] [TIFF OMITTED] T5222.097
    
    [GRAPHIC] [TIFF OMITTED] T5222.098
    
    [GRAPHIC] [TIFF OMITTED] T5222.099
    
    [GRAPHIC] [TIFF OMITTED] T5222.100
    
    [GRAPHIC] [TIFF OMITTED] T5222.101
    
    [GRAPHIC] [TIFF OMITTED] T5222.102
    
    [GRAPHIC] [TIFF OMITTED] T5222.103
    
    [GRAPHIC] [TIFF OMITTED] T5222.104
    
    [GRAPHIC] [TIFF OMITTED] T5222.105
    
    [GRAPHIC] [TIFF OMITTED] T5222.106
    
    Mr. Ose. Our fourth witness for today's hearing comes to us 
from the Natural Resources Defense Council, where she serves as 
a senior forest policy analyst, Ms. Amy Mall.
    Ms. Mall, welcome. You are recognized for 5 minutes.
    Ms. Mall. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for your invitation to testify today. 
My name is Amy Mall. I am the senior forest policy analyst at 
NRDC, the Natural Resources Defense Council, a national, 
nonprofit organization with over 550,000 members dedicated to 
the protection of public health and the environment.
    Forest Service research has found that the most effective 
way to protect homes or other structures is to focus on the 
building, itself, and its immediate surroundings. This is known 
as making homes firewise. Last year's fires in California were 
strong evidence that these methods work. Throughout southern 
California, homes remained standing if they had proper home 
materials, design, and landscaping, but many homes across the 
West are not yet firewise, and homeowners need immediate help 
with information and financial assistance. Collaboration is 
essential because most of these homes and communities are not 
on Federal land.
    Instead of focusing on firewise activities and State and 
local assistance, however, the Bush administration is spending 
millions of dollars a year on logging trees miles away from the 
nearest home in what is called the ``back country.'' Despite 
what Under Secretary Rey asserted earlier, there are virtually 
no peer reviewed empirical studies that show that such logging 
leads to a systematic reduction of forest fire intensity. In 
fact, I have a list with me of Forest Service research--and it 
is cited in my written testimony--that shows that these 
activities can actually increase fire intensity or spread.
    The administration has also adopted regulatory changes that 
are unnecessary, increase the burden of public participation, 
and will lead to more controversy and bureaucratic 
complication. The environmental review process before the Bush 
administration took office worked well, with no factual 
evidence that any aspect of the process seriously hampered the 
protection of homes and communities. To the contrary, GAO found 
that more than 95 percent of hazardous fuels reduction projects 
were ready for implementation within the standard 90-day review 
period. Only a tiny percentage of the projects and acreage were 
delayed by litigation. And agencies already had procedures to 
expedite approval, including categorical exclusions, NEPA's 
emergency authority, and the Forest Service authority to exempt 
appeals from the mandatory stay.
    Nevertheless, in 2003 the Bush administration issued new 
categorical exclusions from NEPA, allowing agencies to avoid 
public environmental review on projects up to 1,000 acres of 
land, regardless of the intensity of logging or the trees cut, 
including old growth trees. And, after exempting many logging 
projects from environmental review, the Bush administration 
adopted new regulations to exempt these projects from appeal. 
For projects that are still eligible for the appeal process, 
new regulations set up numerous obstacles to members of the 
public wanting information and input. The 2003 appeal 
regulation and the 2004 protest rule under the Healthy Forest 
Act share many of the same problems, making it more difficult 
to oppose projects, even if those projects might increase fire 
risk.
    Contrary to what Under Secretary Rey said earlier, Section 
218.6(A) of the 2004 interim final rule does say that 
environmental assessments are not circulated for public comment 
in draft form.
    The 2004 protest rule also exempts from protest any project 
the Forest Service claims was proposed by Under Secretary Rey, 
ignoring a court decision that recently rejected a similar 
exemption. Again, contrary to what he said earlier, the 
regulation in Section 218.12(B) does say that it exempts 
authorized hazardous fuels reduction projects that are proposed 
by the Secretary or the Under Secretary of Agriculture.
    The Bush administration has also used these regulations to 
advance its efforts to restrict judicial review for logging 
projects.
    The President's fiscal year 2005 budget request also fails 
to prioritize community protection. The percentage of acres the 
Bush administration plans to treat in the areas closest to 
communities is only 51 percent. That's in the administration's 
budget request. That means that 49 percent of the acres to be 
treated in fiscal year 2005, which is 1.4 million acres, would 
be in the back country, far from the nearest home or community. 
Some of these projects are over 40 miles from the nearest home 
or community.
    As discussed above, these activities can actually worsen 
fire risk, according to firecologists. In addition, the 
administration has proposed cutting funding for State and local 
assistance by 32 percent. This will weaken collaboration and it 
will reduce assistance to the jurisdictions that have the 
primary responsibility for protecting western homes and 
communities.
    Thank you, Mr. Chairman, for the opportunity to testify 
today.
    Mr. Ose. Thank you, Ms. Mall. I appreciate your brevity. 
It's very unusual around here that somebody stays within their 
5 minutes, so thank you.
    [The prepared statement of Ms. Mall follows:]

    [GRAPHIC] [TIFF OMITTED] T5222.107
    
    [GRAPHIC] [TIFF OMITTED] T5222.108
    
    [GRAPHIC] [TIFF OMITTED] T5222.109
    
    [GRAPHIC] [TIFF OMITTED] T5222.110
    
    [GRAPHIC] [TIFF OMITTED] T5222.111
    
    [GRAPHIC] [TIFF OMITTED] T5222.112
    
    [GRAPHIC] [TIFF OMITTED] T5222.113
    
    [GRAPHIC] [TIFF OMITTED] T5222.114
    
    [GRAPHIC] [TIFF OMITTED] T5222.115
    
    [GRAPHIC] [TIFF OMITTED] T5222.116
    
    [GRAPHIC] [TIFF OMITTED] T5222.117
    
    [GRAPHIC] [TIFF OMITTED] T5222.118
    
    [GRAPHIC] [TIFF OMITTED] T5222.119
    
    [GRAPHIC] [TIFF OMITTED] T5222.120
    
    [GRAPHIC] [TIFF OMITTED] T5222.121
    
    [GRAPHIC] [TIFF OMITTED] T5222.122
    
    [GRAPHIC] [TIFF OMITTED] T5222.123
    
    [GRAPHIC] [TIFF OMITTED] T5222.124
    
    [GRAPHIC] [TIFF OMITTED] T5222.125
    
    [GRAPHIC] [TIFF OMITTED] T5222.126
    
    [GRAPHIC] [TIFF OMITTED] T5222.127
    
    [GRAPHIC] [TIFF OMITTED] T5222.128
    
    [GRAPHIC] [TIFF OMITTED] T5222.129
    
    [GRAPHIC] [TIFF OMITTED] T5222.130
    
    [GRAPHIC] [TIFF OMITTED] T5222.131
    
    [GRAPHIC] [TIFF OMITTED] T5222.132
    
    Mr. Ose. I want to recognize the gentleman from Virginia.
    Mr. Schrock. Thank you, Mr. Chairman. Thank you all for 
being here. I have been in Defense markups all day, so that's 
why I wasn't here for the first part. This is an incredibly 
important topic. My closest friend was a former fire chief in 
Los Angeles County, Dave Parsons. I don't know if anybody knows 
him. So, I heard a lot from him when I was out there. My 
sister's home was in the Piedmont section when they had the big 
open fire in the Coldecut Tunnel, and my wife's aunt and uncle 
had a home in Emerald Bay that was impacted when they had fires 
down there, and she and I lived a couple miles from Anaheim 
when they had the Anaheim fires. Our family just hasn't had a 
lot of good luck. I know it is an incredibly important topic.
    Senator Campbell, you are dead right. If there is the 
political will to do it, it can be done. The fact that 
California has experienced more of these I think than any other 
State--unless I just read it wrong--something clearly has to be 
done to help that State or it is going to burn down. The sooner 
we can address that, the better.
    Mr. Turbeville, I agree--prevention is certainly a lot 
better, whether it is fire, health care, or whatever. The 
sooner that sort of philosophy can be ingrained in the system, 
the better, but I don't know if we ever will.
    Chief McCammon, you said the system was not coordinated to 
handle fires. Help me through that. Or did I misunderstand you? 
It seems like there has been enough experience in California so 
that things would have been very well coordinated, unless I 
misunderstood what you were saying.
    Mr. McCammon. I wasn't commenting about the suppression 
efforts. I think we have one of the best mutual aid systems in 
the world.
    Mr. Schrock. OK.
    Mr. McCammon. I was talking about the grant process, 
getting money from the Federal Government through the different 
agencies actually down to the local Fire Safety Councils.
    Mr. Schrock. I see.
    Mr. McCammon. And, the complexity of that.
    Mr. Schrock. You heard what Ms. Mall said. I'd be curious 
what your comments are on that. I heard a lot of things about 
the Bush administration, but my sister was in a fire during 
another administration. My wife's family was in another 
administration. We were in the Anaheim fire in another 
administration. So I would be curious to know what your 
thoughts are on what she said about current regulations as 
proposed and created by this administration.
    Mr. McCammon. Well, I don't want to comment about the 
forest issues specifically because I don't have experience 
there, but her comments were dead on in terms of the idea of 
creating defensible space around homes. There is some issue in 
the field now whether 30 feet, 100 feet, or 300 feet is the 
number, but we had some wonderful examples in Ventura and Los 
Angeles County last September where communities were saved 
because they were built with defensible space in mind, and when 
communities really get together and create those kind of buffer 
zones, it gives us an opportunity to kind of slow the fire down 
a little bit and really suppress the fires in those 
neighborhoods.
    Mr. Schrock. Help me understand defensible space. Is that 
just a fire break between the green stuff and the houses, or--
--
    Mr. McCammon. That's correct.
    Mr. Schrock. OK.
    Mr. McCammon. It is an area anywhere from 30 feet to in 
some areas they are recommending 300 feet where they have fire-
resistive vegetation or no vegetation at all, so that when the 
fire--those wind-drive fires, as they approach those types of 
housing tracts, really need some space because you're getting 
extreme flame lengths.
    Mr. Schrock. But in a fireball type situation, 30 feet--
that's probably half the width of this room. That doesn't seem 
like a lot of space when winds are kicking up.
    Mr. McCammon. Exactly.
    Mr. Schrock. As I recall, when it came from Oakland through 
the Coldecut Tunnel, the fireball, and then it went on to the 
Piedmont area, and that was miles away.
    Mr. McCammon. Yes, it did, sir. I was there from the very 
beginning and lived in Oakland and experienced that.
    Mr. Schrock. Yes. I yield back.
    Mr. Ose. I thank the gentleman.
    I want to clarify a point here. In terms of defensible 
space, the fire break issue, if you will, there have been a 
number of studies and recommendations done to help flesh out 
that, both in terms of national standards, where people are in 
the wildland-urban interface, or with building codes across the 
country. Study after study after study have shown that those 
are successful, that the use of non-combustible roof material 
or siding that is combustive-resistant or these 100-foot to 
300-foot areas where you have clear space around your house, 
those are all successfully identified by research and 
implemented in the field. Curiously enough, in the context of 
the same studies that identified building code standards and 
clear spaces, there was also studies--and I have a compilation 
of these studies right there that I'm going to enter into the 
record, and this is just a sampling--there have been studies 
that also talk about reducing the fuel buildup in the areas 
outside that 100-foot footprint or that 300-foot footprint.
    Now if, in fact, building codes in California--and many of 
these communities have evolved to where construction is now 
taking place with fire-resistant roof material or siding, and 
if landscape design features are such that the footprint 
becomes 100-foot radius for protective purposes, why is it 
we're still having these significantly catastrophic fires? And, 
it begs the question, it seems to me, that the causes--one of 
the non-implemented features that has been highlighted in study 
after study after study, which is the continuation of the 
buildup of fuel within the forests.
    Now, Senator Campbell, you sit on the Governor's Fire Task 
Force. What has your research or study come to the conclusion 
of?
    Mr. Campbell. We still have the conflict there in the 
public policy issue. It seems that common sense has become a 
stepchild to the issue of fire protection of fire and property 
in this whole debate. We had one witness in Ventura testify 
that he received an order from the fire department to clean 100 
feet around his house in Malibu, and he received another order 
from the Coastal Commission denying him the right to do that. 
These are the kinds of conflicts I think that we run into.
    There was a news report in the Los Angeles Times about the 
need to protect the kangaroo rat in certain areas prevented the 
clearance and the clearing out of specific areas, and also the 
gnat catcher. As a result we lost houses and property and, as 
you know, there were 22 lives lost in the fires in southern 
California last year.
    So, somewhere along the line, you know, 40 miles is not a 
long distance. Our front line, our fire line was more than 40 
miles long at one point in southern California of fire. So for 
a fire to travel 40 miles inland, and most people have never 
experienced the Santa Ana wind conditions, and when you 
experience them you understand that once those winds hit the 
dry chaparral and shrubbery and vegetation, there's nothing 
that the firefighters can do. I mean, we're getting 55 mile an 
hour winds with gusts up to 70. One pilot--we had to ground the 
planes at this time, but one pilot saw a piece of 6 x 8 plywood 
flying by his windshield at 500 feet when he was dropping. When 
you drop the retardant or the water you have to be down low so 
it doesn't evaporate before it hits the ground.
    So, unless we start doing the clearing and the vegetation, 
then the irony of all this, as you so eloquently stated 
earlier, was that the habitat and the vegetation that we're 
trying to protect is also destroyed. The kangaroo rat was 
destroyed along with the houses and the property and the 
vegetation in the cedar fire, which is the one to which they 
specifically referred. So that's where the public policy people 
have to come together and say, ``We just can't allow this to 
continue to happen.''
    We had a fire in northern California last year called the 
Cone Fire, and it burned over an area where they were doing a 
demonstration project of how to control vegetation. Three of 
the four areas that you looked at after the fire were 
devastated. The fourth area you could hardly tell a fire was 
there because they had cleaned the vegetation, they had removed 
some of the unnecessary trees, they got rid of some of the 
chaparral, and the result and effect was that they were able to 
control the fire in that one area because they had good forest 
management practices.
    Mr. Ose. Mr. Turbeville, on the Fire Safe Council, near as 
I can tell from the testimony, you focus on building materials 
and setbacks and things like that. Now, if I'm incorrect, No. 
1, I need to be corrected. But, second, as I look, I'm 
wondering whether or not you share my conclusion to this point 
that we've had some of these measures implemented but some we 
have not, and those that we did not implement, either for 
policy reasons or otherwise, are they contributing to the 
issues we're dealing with today with these fires?
    Mr. Turbeville. Well, one of the comments I made in my 
presentation to you was the new regulations, going back to what 
was presented here shortly ago--in Simi Valley, for example, in 
that new construction area there was no problem at all because 
of the defensible space, correct building materials, fire safe 
building materials. Where those are in place, there's a much 
greater chance because it is a combination effort--the 
defensible space and a mosaic landscape away from the 
defensible space as you get in, to reduce the fuels. It is 
correct building materials and building processes. The vent 
holes around the attic line or the footline open without any 
covering allows sparks to get inside. Another thing that people 
don't seem to realize, you've got 30 feet of clearance, you've 
got 10 foot brush, and then wind. As Senator Campbell said, 
you've got 100-foot flame lengths, so 30 feet doesn't do a lot 
of good. So, it's all a combination and it all has to be put 
together. There has to be fuel breaks within communities, 
surrounding the whole community, to stop it. If you are 
unfortunate enough to get a couple of houses going, it will go 
house to house just because of the extreme heat generated by 
the fire. If there are fuel breaks, wide streets, etc., 
hopefully you are going to be able to get in there, like Bill 
said, and get the engine companies in there to stop it from 
doing that. In an unprotected area, it is going to go until it 
wants to stop, and that's it.
    Mr. Ose. Ms. Mall, from NRDC's investigations, one of the 
things I'm trying to figure out is whether we can approach this 
issue from a problem-solving standpoint by doing one, two, 
three, or all of the things that have been identified in these 
studies. I take from your testimony that you support the 
building material issue, the setback, but I detect some 
reluctance on your part about the fuel issue that might be 
built up in the forest. Am I correct in that understanding?
    Ms. Mall. Well, if you're talking about fuel that is far 
away from homes, yes, you are correct, because while there may 
be some scientific studies that you've seen that shows some 
areas that have been logged far away from homes ended up 
burning less intensively in a fire, there are also studies that 
show that areas have been logged have burned more intensively 
in a fire. Therefore, the science is not conclusive.
    Actually, attached to my testimony is a letter from the 
Nation's top firecologist----
    Mr. Ose. I read it.
    Ms. Mall [continuing]. To the President saying that very 
thing. And, basically in my testimony what we were trying to 
say is that we do know conclusively that we can protect homes 
by doing the work immediately around homes. The work far away 
from homes we do not know. The Forest Service has a research 
budget, and they can use the research funds to look into 
getting to a better place in the science. But, right now, if 
the goal of the government is to really protect homes and 
communities, that's where the resources should be focused.
    Mr. Ose. I actually did read your attachment from the 
various individuals across the country, and I do believe what 
they were saying was that the science was inconclusive as it 
relates to some of the proposals under Healthy Forests 
Initiative or Restoration Act.
    Ms. Mall. Yes.
    Mr. Ose. I have to break things down simply in my mind 
because I have to remember too many different things. So it is 
your testimony around houses that the removal of fuel by virtue 
of 100-foot or 300-foot or whatever the setback is is effective 
in preventing catastrophic fires, but that the removal of fuel 
in remote locations--I think your phrase, though lacking in 
technical bureaucratese, ``back country''----
    Ms. Mall. Yes.
    Mr. Ose. Removal of fuel in back country situations, you're 
saying the science is inconclusive in terms of its impact on 
fires?
    Ms. Mall. Its effectiveness on fire intensity.
    Mr. Ose. So it is conclusive in close proximity to houses, 
but it is inconclusive in back country?
    Ms. Mall. I do want to add, in proximity to houses, 
removing fuel is not, as some of the other witnesses have said, 
is not the only thing that will make a home firewise.
    Mr. Ose. I understand.
    Ms. Mall. There's also the building materials.
    Mr. Ose. Right. I got that.
    Ms. Mall. And landscaping. But yes, it is a different 
situation closer to houses. If we are trying to protect homes 
and communities, we know how to do that. What we can't know for 
sure is how a fire will burn, where it will burn, where it will 
start when it's out in the back country, and therefore there is 
not clear science on how to move forward with those projects.
    Mr. Ose. OK. I just want to make sure I understand. In that 
wildland-urban interface then, as part of a larger package, the 
removal of fuel from close proximity to residential structures 
is an effective tool in an arsenal of tools to fight fires.
    Ms. Mall. But, we're not----
    Mr. Ose. But, in the back country, if I understand your 
testimony, there's no conclusive evidence to support that same 
conclusion?
    Ms. Mall. My testimony is not that the work around the 
homes will prevent a fire or will stop a fire; my testimony is 
that will protect the home.
    Mr. Ose. What's the difference?
    Ms. Mall. Well, the difference is that we can't control 
where a fire will start and when it will start and what the 
wind will be that day and where it will travel, but we do know 
that we can protect the home site if the fire goes in that 
direction.
    Mr. Ose. Does the removal of the undergrowth around a house 
reduce the intensity of the fire? Is that your testimony?
    Ms. Mall. Well, I'm not exactly sure how to answer that 
question, but----
    Mr. Ose. Well, yes or no would be sufficient.
    Ms. Mall. Well, it will protect the home.
    Mr. Ose. OK.
    Ms. Mall. The fire will not----
    Mr. Ose. So, removal of fuel in back country----
    Ms. Mall. Yes.
    Mr. Ose [continuing]. Won't help protect the forest? You 
see, I'm trying to get an explanation of how removal of fuel in 
one area----
    Ms. Mall. Sure. The home site is already an open area. 
There is some open space, and----
    Mr. Ose. Once cleared, that's correct.
    Ms. Mall. Many home sites have driveways, they are near 
streets, there's a sidewalk, there's a yard, there's already 
areas that are cleared. That's very different than a wild area 
where there has been no clearing.
    Mr. Ose. Actually, before I came to Congress I was in that 
business, and the typical minimum setback from a street is 20 
feet and the typical single family elevation setback from a 
side yard is 5 feet, and the typical rear yard in my community 
is a minimum of 20 feet, so I have more than a passing 
knowledge on design standards.
    Ms. Mall. Yes.
    Mr. Ose. I think your point is that the open space in that 
wildland-urban interface of 100 feet or 200 feet serves this 
purpose.
    Ms. Mall. It is a very different landscape than a wild 
forest that's a natural area that has not been logged before.
    Mr. Ose. OK. But removing fuel from that area around those 
houses is part of the fire attenuation process or not part?
    Ms. Mall. If it is brush and it is small trees, it is 
extremely flammable, and that is the stuff that generally 
you're removing when you're making a home firewise.
    Mr. Ose. OK.
    Ms. Mall. If you go into a forest and you're just taking 
out the brush and you're just taking out undergrowth and very 
small trees, that's very different than a logging project where 
you're taking out medium or large trees. That changes the----
    Mr. Ose. It changes the canopy cover and everything else, 
so----
    I'm sorry, I'm probably not going to make this vote, but I 
wanted to ask you, in terms of the component parts that are 
identified in study after study after study of what is 
appropriate fire attenuation programs, in a highly urban area 
like Sacramento, where I live, and you've got lot and block 
subdivisions, you're seeking noncombustible materials on the 
roof and fire-resistant materials in the construction 
underneath the roof?
    Mr. McCammon. That's correct.
    Mr. Ose. OK. As a means--for instance, there are even some 
communities that require sprinklers in single family houses and 
apartments now.
    Mr. McCammon. Yes.
    Mr. Ose. In an area where we have the wildland-urban 
interface, the same applications would apply to beneficial use, 
if I understand your testimony.
    Mr. McCammon. Yes.
    Mr. Ose. And then on top of that, given the geographic 
location, your testimony is that having some sort of 100-foot 
setback or fuel removal program is positive in terms of 
preventing a catastrophic fire?
    Mr. McCammon. Yes, sir.
    Mr. Ose. OK. Mr. Turbeville, I want to talk to you about 
the grants process a little bit. On the grants process, I'm 
told that there was a provision in the budget that was passed 
by the House that sets aside $500 million protected from a 
point of order, the purpose of which would be to go either to a 
grants process in part or to prevent the raiding of the grants 
process funding as other emergency situations arise. Are you 
aware of that?
    Mr. Turbeville. I'm vaguely aware of it. I just heard of it 
a couple of days ago and have not had an adequate explanation.
    Mr. Ose. OK. And, you followed Mr. Rey's announcement 
earlier today about the flexibility in terms of the matches and 
what have you. That's not part of the grants process you're 
talking about?
    Mr. Turbeville. I don't believe so.
    Mr. Ose. OK. In terms of the fire plans that you talk about 
as the body of the grassroots effort that are getting 
developed, can you tell us what measures should be--I just want 
to come back. I'm beating the horse to death here if I can. 
What measures should be included in the establishment of these 
fire plans in particular for the purpose of mitigating fire 
risk?
    Mr. Turbeville. Well, there's multiple things that go into 
a fire plan. Also, are you talking about just a community fire 
plan, or are you talking about the California State fire plan, 
or----
    Mr. Ose. I'm talking more specifically about the community 
fire plan. I want to know how it works on the ground for some 
of these fires that might otherwise be prevented in California 
or any of the western States this year.
    Mr. Turbeville. Basically, it's a matter, at the community 
level, of working collaboratively with the fire agencies and 
the other interested entities in setting priorities, 
determining a chain of events that have to occur based on the 
priorities. What are the biggest at-risk hazards, which ones 
need what kind of work? How soon can that work be done, and 
descending down from there. It is a simple planning process. 
It's setting the priorities, determining who is going to do it, 
how it is going to be done, and who is going to pay for it.
    Mr. Ose. So, the fire plan that might exist, say, at Lake 
Arrowhead might be significantly different than the fire plan 
that exists in Santa Monica as compared to the fire plan that 
might exist in Sacramento, CA, depending on the circumstances?
    Mr. Turbeville. Theoretically, every fire plan should be 
different, should take into consideration exactly what they're 
dealing with at the local level.
    Mr. Ose. Now, the fire plan is a plan for a snapshot in 
time, a circumstantial situation, or is it something that is a 
long-term effort by a community?
    Mr. Turbeville. It should be a long-term effort, because 
not only do we need to do the clearance of fuel around a 
community, we have to remember that fuel starts growing back 
immediately, so it must be maintained to be effective forever.
    Mr. Ose. So, within a community's fire plan you might have 
budget standards?
    Mr. Turbeville. Yes.
    Mr. Ose. Setback requirements?
    Mr. Turbeville. Right.
    Mr. Ose. Spaces between structures, width of roads for 
firefighting equipment and the like, fuel reduction plans?
    Mr. Turbeville. Yes.
    Mr. Ose. What about the use of some of the chemicals that 
I'm aware of that retard the growth or the regrowth of fuel?
    Mr. Turbeville. Fuel modification through chemical 
modification?
    Mr. Ose. Yes.
    Mr. Turbeville. If it is allowed--very difficult with some 
of the environmental compliance issues. In some areas it does 
work and is allowed.
    Mr. Ose. OK.
    Mr. Turbeville. But, it needs to be considered. If it is a 
potential remedy, use it.
    Mr. Ose. All right. How far afield does a community go when 
it is considering a fire plan? For instance, does it address 
the circumstances of fire in its watershed? For instance, if a 
community draws water--like San Francisco draws water from 
Hetch Hetchy. I mean, that's the No. 1 water source for San 
Francisco. Does San Francisco's fire plan address conditions in 
and around Hetch Hetchy?
    Mr. Turbeville. Common sense would tell me that if my water 
supply is coming from Hetch Hetchy Reservoir, I'd better be 
thinking about it, even if I am in San Francisco on the 
receiving end of that water, because the responsibility--it is 
someone's responsibility to consider it. You can't 
automatically assume that it's always going to be there.
    Mr. Ose. You may have just opened up Pandora's Box.
    So, Senator Campbell, in the State of California 
Statewide--I mean, you know Sacramento. We get our water from 
Folsom and it comes out of the Sierra Nevadas. San Francisco 
gets it from Hetch Hetchy. Shasta supplies it. How do we, 
across jurisdictions, deal with this issue?
    Mr. Campbell. Mr. Chairman, I wanted to make one comment on 
the community plans, because one of the biggest successes was 
the community plan in the Lake Arrowhead/Big Bear area. That's 
the evacuation portion of the plan. In Lake Arrowhead in that 
area they evacuated up to 70,000 people out of those mountains 
on two-lane highways without even a fender bender. It was one 
of the most amazing success stories in the fire siege down 
there in southern California.
    Now, the water supply--San Francisco has an advantage. They 
also, since the earthquake, pump water out of the San Francisco 
Bay specifically for firefighting efforts. If they have to use 
the salt water, they will do it. But the State water, we are in 
the midst of a massive, massive drought in California all over 
the State, and as we look at the fires right now in southern 
California particularly, one thing we haven't mentioned is 
there are over a million dead trees from the bark beetle in the 
San Bernadino Mountains, and they are kindling, and they are 
ready just to explode the minute heat hits them of a high 
proportion. So, what we found out is we missed out in spring 
this year for California. We went from winter, you know, the 
April showers that are supposed to bring May flowers, we didn't 
get the April showers and now we are having May fires--a bad 
pun, I might add. But, nonetheless, here we are in the early 
part of the season fighting massive fires already in southern 
California. And, if they ever get into the mountain areas with 
the dead bark beetle trees and the Santa Ana winds hit again 
this fall, we could lose up to 30,000 homes in that area.
    Now, the water isn't coming in as rapidly for southern 
California from the State water project or from Hoover Dam or 
Boulder Dam. That water supply is dwindling. The water supply 
from down river out in the Imperial area is dwindling. The 
water supply, Folsom Lake, if you have been out--I'm sure 
you've been there--recently there's not as much water as there 
is supposed to be. That's in all our reservoirs up and down the 
State.
    As you know, most of the water in the State of California 
is used in agriculture. Overwhelmingly, about 80 percent or 
more is used in agriculture, and industrial production takes 
about 10 and residential used to be 5 or 7 or somewhere in that 
neighborhood. So, we have a drought, a critical issue hitting 
California, and we could see the same kind of fire siege this 
year as we saw last year, and not just southern California but 
all over the State of California.
    So, what do we do? We plan. The Commission, by bringing 
together the State, the local, and the Federal officials, we 
worked out some real problems; however, we've got to start 
moving on those problems, like the interoperability of 
communications is a major problem in any siege, because you 
have the communications between the Federal fire service with 
Interior, with Forest Service, with the military, and with the 
State, and then with the local fire departments and fire 
districts, and then you throw on top of that the public 
utilities and CalTrans and emergency medical, and for an 
incident commander to be able to control that situation becomes 
very difficult, and cell phones--individual captains on the 
engines were using cell phones to communicate with each other, 
and in the mountainous terrain that was difficult to do.
    I don't know what to tell you, Mr. Chairman, about what are 
we going to do. We're just going to hope for the very best and 
rely heavily upon the expertise and the good will of the fire 
fighters in California.
    Mr. Ose. I want to ask each of you the following question. 
Mr. Rey testified that, while the Restoration Act set a minimum 
of 50 percent of these funds being spent on reduction 
activities in the wildland-urban interface, they're actually 
spending 60 percent. Do you have a recommendation as to what--
before you answer that, that's a 5-minute vote. Mr. Turbeville, 
I know you've got a plane to catch, so unless you go now you're 
not going to catch it, so I'm going to go ahead and excuse you.
    Mr. Turbeville. Yes, I do.
    Mr. Ose. If you don't leave now, you're not going to catch 
it, so I'm going to go ahead and excuse you. I have to go make 
this second vote. I will be back in about 12 minutes and we'll 
finish this panel. I appreciate your patience. Mr. Turbeville, 
I know your situation, so I apologize I couldn't get this done, 
but we appreciate your coming.
    Mr. Turbeville. I understand.
    Mr. Ose. We're recessed for about 12 minutes.
    [Recess.]
    Mr. Ose. I appreciate your patience.
    I was on the verge of asking about the distribution of 
funds in treating fuel reduction. The testimony of one of the 
earlier witnesses was that 60 percent of USDA and DOI's, 
Agriculture and Interior's, combined fuel reduction funds are 
being spent on the wildland-urban interface. My question is 
whether or not that's too much, too little, the right amount, 
what have you.
    Mr. Campbell. Mr. Chairman, I hate to say this. I'm not 
qualified to answer that question. I would defer to----
    Mr. Ose. An honest answer.
    Mr. Campbell [continuing]. Chief McCammon. But, a quick 
observation is we have to do something about cleaning the 
areas, not just around homes but doing some significant 
mainstream management of our forests.
    Mr. Ose. OK. Chief.
    Mr. McCammon. Well, as Senator Campbell, I don't know that 
I can speak to whether 50 percent is enough or 70 percent is 
enough, but I can tell you from California's perspective we 
believe more funding needs to be dedicated toward those fuels 
management issues in the wildland-urban interface.
    Mr. Ose. OK. So let's say 50 percent was spent last year. 
We need to be higher than that. And, I don't know the numbers, 
frankly.
    Mr. McCammon. Well, the difficulty I think is trying to 
understand where those acres are that have been managed, and, 
you know, for us in California we have some significant issues 
that haven't been managed, and so I can't speak to the other 
States that are involved, but in California we'd like to see 
more funding dedicated to dealing with those issues.
    Mr. Ose. With that wildland-urban interface?
    Mr. McCammon. Urban interface, yes.
    Mr. Ose. Ms. Mall.
    Ms. Mall. We do believe that a great deal more should be 
focused in the wildland-urban interface close to homes and 
communities until all homes are made firewise, especially for 
people who don't have the financial wherewithal to do it 
themselves. That should be the priority. It is especially 
important, I want to note, in areas like southern California 
where a lot of the areas at risk are not forested. Most of the 
fires in southern California were not trees that were burning. 
I believe, according to the National Fire Center's report that 
I read this morning, most of those fires today burning are 
brush fires. And, in particular, when you're logging in areas, 
that's not going to help the communities that are not forested.
    Mr. Ose. The pictures I've seen of the before versus after 
is that it is almost chaparral-like, low manzanita type brush 
with the highly combustible, almost fuel-like plant fluid that 
just explodes on you when it catches fire.
    Chief, is that your experience, too?
    Mr. McCammon. Yes, sir.
    Mr. Ose. OK. Senator, do you agree with that?
    Mr. Campbell. Yes.
    Mr. Ose. At least in terms of the areas that we have had 
such catastrophes in, that tends to be the characteristics 
we're dealing with. We haven't really had what someone might 
call a traditional Yellowstone type fire.
    Mr. McCammon. Well, I think some of the areas in San 
Bernadino County get close to that. We only saw 3 percent of 
the trees that were dead from the bark beetle infestation 
actually burn in those fires--the whole Grand Prix fire. But, 
clearly you could have a Yellowstone type situation had those 
winds continued to blow East and take the mountain out, itself.
    Mr. Campbell. And, they reach a point, Mr. Chairman, where 
they jump from crown to crown with those kinds of winds, and 
you know, they get the underbrush later. It comes down. But 
with the wind blowing at the speed at which it blows when the 
Santa Ana conditions are evident, there's just nothing you can 
do.
    Can I go far afield for a second?
    Mr. Ose. Certainly. We're an investigative committee, so 
you can do anything you want.
    Mr. Campbell. We played around, Mr. Chairman, in the 
discussions with the predator, and the reason for that is the 
predator technology can take pictures and relay information at 
night time and through smoke and through fog or whatever, 
through areas, and what we would like to see happen is for the 
Federal Government to dedicate a couple of predators without 
the military potential of the rockets, but just from the 
technical aspects of their ability to look down on a fire at 
nighttime and tell us what that fire is doing, because right 
now it is hard to know where that fire is going to come out in 
the morning if we can't look down and see what's happening, and 
so I know it is top-secret technology that you're utilizing, 
but if the Federal Government could provide a couple of those 
available for major fires like we had in southern California, 
it would give us a little indication as morning comes where we 
could set up our lines and maybe have a little better 
opportunity to at least slow the fire down or to stop it.
    Mr. Ose. All right. Chief.
    Mr. McCammon. Could I maybe elaborate on your question 
about the 50 percent or 70 percent? One of the things as I've 
reviewed the way this process works is that--and I spoke to it 
early about the discoordinated nature of the whole process in 
that you have several different agencies that are funding fuels 
management programs in different areas. Sometimes I don't think 
they even know which ones they are doing or not doing as it 
relates to one another, and I think that there really needs to 
be a concerted effort to focus on development of the community 
fire plans so that we take those at-risk communities and we 
start building from the community fire plan forward and then 
begin to understand the types of fuels management programs that 
they need and how they need to implement those and get all of 
the Federal agencies working together.
    I think you see the California Fire Alliance has put an 
effort forward to try and do that. I think any time you can 
maximize the use of funds by working together, you are going to 
get a better product.
    Mr. Ose. All right. I just have just a few remaining 
questions.
    Senator Campbell, in the report from the Commission 
published in April of this year, on page 13 there was a comment 
that the most destructive, costly, and dangerous wildfires 
occurred in older, dense vegetation burning under extreme 
conditions. What do you mean by ``extreme conditions?''
    Mr. Campbell. The buildup of the area, the forest area, or 
the chaparral area where all the underbrush is there and it 
dies out and then you have new underbrush that grows the next 
year and it dies out. It piles one up on top of the other. You 
have no thinning of trees or even shrubbery or the small trees 
around there.
    By the way, the bark beetle is indigenous to southern 
California. I mean, it's not something that just happened. But 
because of the drought it dried up the sap of the trees which 
was used to kill the bark beetle, and thus we have over a 
million bark beetle trees dead there.
    But when these extreme conditions come together with the 
drought, with the dryness--and, by the way, southern California 
has been racked with over 100 degree temperatures for the last 
2 weeks--and the winds, and the cool breeze that blows in off 
the ocean, when that stops and you have them coming in off the 
desert and you have the Santa Ana wind conditions, when those 
hit--let me state this again--there's nothing we can do to stop 
that fire. I mean, we have to have--what we do beforehand is 
more important than what we do at that point.
    Mr. Ose. Are you suggesting that, so to speak, we are not 
out of the woods yet?
    Mr. Campbell. We're in big trouble right now.
    Mr. Ose. This is going to keep coming and coming and 
coming?
    Mr. Campbell. No. But unless we get the good forest 
management, unless we manage the forest properly to clean out 
the dead vegetation, to make sure that we protect the 
watershed, to make sure that we do everything that we can to 
get rid of the combustible material that's on the ground and in 
the area, you have growth in our forests in southern California 
where you have the big trees, but all of the small trees that 
are growing up around it, and feeding off the same water system 
as does the large tree, and thus the drought affects all of the 
large trees and the small trees die off, and they just lay 
there and act as fuel for the next fire coming in.
    When those things, all those combination of factors come 
together, that's when we get the kind of conflagration we got 
last fall. And, we're ripe for it again this year, I hate to 
say.
    Mr. Ose. Chief, your colleagues in the firefighting 
business, frankly, have to deal with the reality of this. In 
terms of where we have gone with urban development in 
California and the buildup of fuel, the lack of advance 
planning in some of these communities, do you see any decline 
in the challenge we face in the coming days?
    Mr. McCammon. For the firefighting community?
    Mr. Ose. For the firefighting issues.
    Mr. McCammon. No. We saw this last fall. Flame lengths and 
rates of spread that we haven't seen before, and fire fighters 
were asked to do things in this last fire siege that they 
haven't had to do in the past. It was a phenomenal experience 
down there. And, you're seeing areas throughout the State of 
California where those conditions exist, and so we are having 
to train our personnel in different ways than we've done in the 
past. We used to take our apparatus and station at particular 
structures to do structure protection. Well, we have to make 
decisions about whether we want to protect those structures any 
more because of the types of occurrences that we've seen.
    I think that all of our comments about managing the 
interface areas are appropriate, but those are long-term issues 
that we're going to have to deal with, because it isn't going 
to happen overnight. And, as Senator Campbell said, once you 
get the urban interface area taken care of, it is growing back 
all the time.
    As an example, in the city of Oakland we experienced the 
Oakland Hills fire; 3,000 homes, the same number of homes were 
lost in southern California in 2 weeks. We did it in 18 hours. 
The city of Oakland recently had the voters re-approve 
vegetation management districts so they can begin to still 
manage that vegetation that's growing back.
    Mr. Ose. I had the unfortunate experience of becoming a 
member of an insurance board a year after that fire, and we 
waived limits on all the coverages. It must have cost us $2 
billion. We wrote a lot of checks. So that gives you some 
sense. And, that was 12 years ago. That gives you some sense of 
the scope of the problem.
    I don't have any further questions. We're going to leave 
the record open. I know there are people here from California 
who have submitted testimony or letters both to me and to other 
Members of Congress. I have read those letters. To those of you 
who might be in the audience, I have read those letters. We are 
going to leave the record open for questions of our witnesses, 
and in the context of those questions we're likely to ask 
things related to your material that you submitted.
    I do want to thank our witnesses for coming and visiting 
with us today and providing the input. It is clear that 
California remains pretty much at the center of a dilemma from 
a policy standpoint, and that is: how do humans and the 
patterns of growth that exist in high-growth States like 
California or other western States, how do we reconcile the 
demand for housing and community development with bumping up 
against some areas that traditionally have not been subjected 
to urban development? That's that wildland-urban interface.
    We have related issues compared to as population grows in 
California we're going to need water, and the water that 
supplies many of these new growth areas comes from a long way 
away, and so how do we protect or what do we put in place 
policy-wise to protect the watersheds in those areas from 
having catastrophic fires and then having a complete collapse 
of the ecosystem in those watersheds that plug the natural 
streams or fill up the reservoirs with silt and what have you 
from erosion? These are all inter-related.
    Senator Campbell, I appreciate your service in the 
Governor's Commission.
    Chief McCammon, obviously your day-to-day experiences are 
greatly appreciated and probably not sufficiently recognized by 
you and your team. We appreciate that.
    Ms. Mall, we appreciate your coming and sharing with us the 
viewpoint from the organization you represent.
    We will share these findings and this testimony with the 
rest of Congress as is normal practice.
    Again, I thank you all for coming today.
    This hearing is adjourned.
    [Whereupon, at 5:15 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5222.133

[GRAPHIC] [TIFF OMITTED] T5222.134

[GRAPHIC] [TIFF OMITTED] T5222.135

[GRAPHIC] [TIFF OMITTED] T5222.136

[GRAPHIC] [TIFF OMITTED] T5222.137

[GRAPHIC] [TIFF OMITTED] T5222.138

[GRAPHIC] [TIFF OMITTED] T5222.139

[GRAPHIC] [TIFF OMITTED] T5222.140

[GRAPHIC] [TIFF OMITTED] T5222.141

[GRAPHIC] [TIFF OMITTED] T5222.142

[GRAPHIC] [TIFF OMITTED] T5222.143

[GRAPHIC] [TIFF OMITTED] T5222.144

[GRAPHIC] [TIFF OMITTED] T5222.145

[GRAPHIC] [TIFF OMITTED] T5222.146

[GRAPHIC] [TIFF OMITTED] T5222.147

[GRAPHIC] [TIFF OMITTED] T5222.148

[GRAPHIC] [TIFF OMITTED] T5222.149

[GRAPHIC] [TIFF OMITTED] T5222.150

[GRAPHIC] [TIFF OMITTED] T5222.151

[GRAPHIC] [TIFF OMITTED] T5222.152

[GRAPHIC] [TIFF OMITTED] T5222.153

[GRAPHIC] [TIFF OMITTED] T5222.154

[GRAPHIC] [TIFF OMITTED] T5222.155

[GRAPHIC] [TIFF OMITTED] T5222.156

[GRAPHIC] [TIFF OMITTED] T5222.157

[GRAPHIC] [TIFF OMITTED] T5222.158

[GRAPHIC] [TIFF OMITTED] T5222.159

[GRAPHIC] [TIFF OMITTED] T5222.160

[GRAPHIC] [TIFF OMITTED] T5222.161

[GRAPHIC] [TIFF OMITTED] T5222.162

[GRAPHIC] [TIFF OMITTED] T5222.163

[GRAPHIC] [TIFF OMITTED] T5222.164

[GRAPHIC] [TIFF OMITTED] T5222.165

[GRAPHIC] [TIFF OMITTED] T5222.166

[GRAPHIC] [TIFF OMITTED] T5222.167

[GRAPHIC] [TIFF OMITTED] T5222.168

[GRAPHIC] [TIFF OMITTED] T5222.169

[GRAPHIC] [TIFF OMITTED] T5222.170

[GRAPHIC] [TIFF OMITTED] T5222.171

[GRAPHIC] [TIFF OMITTED] T5222.172

[GRAPHIC] [TIFF OMITTED] T5222.173

[GRAPHIC] [TIFF OMITTED] T5222.174

[GRAPHIC] [TIFF OMITTED] T5222.175

[GRAPHIC] [TIFF OMITTED] T5222.176

[GRAPHIC] [TIFF OMITTED] T5222.177

[GRAPHIC] [TIFF OMITTED] T5222.178

[GRAPHIC] [TIFF OMITTED] T5222.179

[GRAPHIC] [TIFF OMITTED] T5222.180

[GRAPHIC] [TIFF OMITTED] T5222.181

[GRAPHIC] [TIFF OMITTED] T5222.182

[GRAPHIC] [TIFF OMITTED] T5222.183

[GRAPHIC] [TIFF OMITTED] T5222.184

[GRAPHIC] [TIFF OMITTED] T5222.185

[GRAPHIC] [TIFF OMITTED] T5222.186

[GRAPHIC] [TIFF OMITTED] T5222.187

[GRAPHIC] [TIFF OMITTED] T5222.188

[GRAPHIC] [TIFF OMITTED] T5222.189

[GRAPHIC] [TIFF OMITTED] T5222.190

[GRAPHIC] [TIFF OMITTED] T5222.191

[GRAPHIC] [TIFF OMITTED] T5222.192

                                 <all>

</pre></body></html>
